  INTERNAL CONTROLS AND COMPLIANCE WITH LAWS AND
  REGULATIONS FOR FY 1997 NATIONAL DEFENSE STOCKPILE
       TRANSACTION FUND FINANCIAL STATEMENTS



Report Number 98-166                           June 25, 1998




             Office of the Inspector General
                 Department of Defense
  Additional Information and Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector1
  General, DOD, Home Page at: WWW.DdDIG.OSD.MIL.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support
  Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
  and requests can also be mailed to:

                    OAIG-AUD (ATT’N: APTS Audit Suggestions)
                    Inspector General, Department of Defense
                    400 Army Navy Drive (Room 801)
                    Arlington, Virginia 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contract the Defense Hotline by calling
  (800) 424 9098; by sending an electronic message to
  Hotline@DODIG.OSD.MIL; or by writing to the Defense Hotline, The
  Pentagon, Washington, D.C. 20301- 1900. The identity of each writer and caller
  is fully protected.




Acronyms

CFO                 Chief Financial Officers
DFAS                Defense Finance and Accounting Service
DLA                 Defense Logistics Agency
DNSC                Defense National Stockpile Center
FFMIA               Federal Financial Management Improvement Act of 1996
GSA                 General Services Administration
                    Inspector General
::MIP               Joint Financial Management Improvement Program
MIF                 Master Inventory File
                    Office of Management and Budget
$FES                Statement of Federal Financial Accounting Standards
USGSGL              U.S. Government Standard General Ledger
                                     INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
        ,
                                    ARLINGTON. VIRGINIA 22202




                                                                                  June 25, 1998

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER) AND
                 CHIEF FINANCIAL OFFICER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
               DIRECTOR, DEFENSE LOGISTICS AGENCY
               ADMINISTRATOR, DEFENSE NATIONAL STOCKPILE CENTER

SUBJECT: Audit Report on Internal Controls and Compliance With Laws and Regulations for
         the FY 1997 National Defense Stockpile Transaction Fund Financial Statements
         (Report No. 98-166)


         We are providing this report for review and comments. The Chief Financial Officers
Act of 1990, as amended by the Federal Financial Management Act of 1994, requires financial
statement audits by the Inspector General. Our responsibility is to issue an opinion on the
financial statements. On February 27, 1998, we issued a disclaimer of opinion on the FY 1997
National Defense Stockpile Transaction Fund Financial Statements. Our disclaimer of opinion
and the financial statements are in Appendix C of this report. We identified internal control
weaknesses and instances of noncompliance with laws and regulations that merit management
attention.

         DOD Directive 7650.3 requires that all recommendations be resolved promptly. The
Under Secretary of Defense (Comptroller) and the Defense Finance and Accounting Service did
not comment on the draft report. We request comments from those offices. The Defense
Logistics Agency comments were partially responsive and were considered when preparing the
final report. We request additional comments from the Defense Logistics Agency on
Recommendations D.3. and F. 2. Management comments should indicate concurrence or
nonconcurrence with each applicable finding and recommendation. Comments should describe
actions taken or planned in response to agreed-upon recommendations and provide the
completion dates of the actions. State specific reasons for any nonconcurrence and propose
alternative actions, if appropriate. We request all additional comments by August 25, 1998.

        We appreciate the courtesies extended to the audit staff. Questions on the audit should
be directed to Mr. David F. Vincent at (703) 604-9110, e-mail dvincent@dodig.osd.mil, or
Mr. John A. Richards at (703) m-9133, e-mail jrichards@dodig.osd.mil.        See Appendix F for
the report distribution. The audit team members are listed inside the back cover.




                                                Robert 3. Lieberman
                                             Assistant Inspector General
                                                     for Auditing
                           Office of the Inspector General, DOD

Report No. 98-166                                                          June 25,1998
      Project No. 8FW2004.01

               Internal Controls and Compliance With Laws and
             Regulations for the FY 1997 National Defense Stockpile
                     Transaction Fund Financial Statements

                                  Executive Summary

Introduction. This audit was performed pursuant to the Chief Financial Officers Act
of 1990, as amended by the Federal Financial Management Act of 1994. The Defense
National Stockpile Center serves as the national repository for raw materials that are
critical to Defense industries in the event of a national emergency. In FY 1997,
$4.1 billion of assets and $120 million of liabilities were reported for the National
Defense Stockpile Transaction Fund. Revenues from sales of stockpile assets were
reported at $529.4 million. The Program Manager responsible for this fund is the
Director, Defense Logistics Agency.

Audit Objectives. The overall audit objective was to determine whether the FY 1997
National Defense Stockpile Transaction Fund Financial Statements were presented
fairly and in accordance with Office of Management and Budget (OMB) Bulletin
No. 94-01, “Form and Content of Agency Financial Statements,” November 16, 1993,
as modified by OMB Bulletin No. 97-01, “Form and Content of Agency Financial
Statements, n October 16, 1996. In addition, we assessed internal controls and
compliance with laws and regulations and followed up on corrective actions from
previous reports. Our review provided a reasonable basis for determining the adequacy
of the internal controls and compliance with laws and regulations as they relate to the
financial statements.
  .
Dsclaimer of Opinion. We were unable to render an opinion on the FY 1997
National Defense Stockpile Transaction Fund Financial Statements because we could
not verify the inventory valuation and confii the accounts receivable. We were
unable to verify the inventory valuation because the results of bulk commodities
measurements by the Army Corps of Engineers were not available by the date the
opinion was issued. Lacking the data on bulk commodities, we were unable to evaluate
and project the results of the entire sample of materials and could not determine
whether the on-hand quantities of materials (80 percent of total assets) were accurate.
In addition, we were unable to confirm the accuracy of accounts receivable (7 percent
of the total assets). We attempted to confirm the accounts receivable balances as of
September 30, 1997. We received responses from only 60 percent of the customers,
and 42 percent of these responses showed differences between the Government’s and
customers’ balances.

Internal Controls. Internal controls were generally effective in accounting for and
managing resources, ensuring compliance with laws and regulations, and providing
reasonable assurance that the fiDancial statements were free of material misstatements.
None of the accounts affected by internal control weaknesses addressed in this report
resulted in a known material misstatement in the facial    statements. However, the
    material weakness we identified in the reporting of accounts receivable (Finding B) had
    the potential to cause a material misstatement. We could not determine the extent of
    any actual misstatement because of the low response for accounts receivable.

    Management attention is required to collect $33.4 million in delinquent accounts
    receivable (Finding A); to ensure the accuracy of the entire $281.2 million reported for
    Accounts Receivable and Interest Receivable (Finding B); and to reconcile accounts
    with the U.S. Mint for silver used in commemorative coins (Finding C). See Part I.A.
    for the internal control weaknesses identified and Appendix A for the internal controls
    assessed.

    Compliance With Laws and Regulations. Management generally complied with
    selected provisions of laws and regulations on the accuracy of the financial statements.
    However, the Defense National Stockpile Center did not comply with Statement of
    Federal Financial Accounting Standards No. 3, “Accounting for Inventory and Related
    Property, * October 27, 1993, for stockpile inventory that has declined in value
    (Finding D). In addition, the Defense National Stockpile Center inappropriately
    retained funds received for the sale of certain commodities under Public Law 104-201,
-   “National Defense Authorization Act for Fiscal Year 1997,” September 23, 1996
    (Finding E). The financial statements did not fully comply with Dod Regulation
    7ooO.14-R, the “DoD Financial Management Regulation,” volume 6, chapter 6,
    “Form and Content of Audited Financial Statements,” January 1998 (Finding F). A
    compliance issue, the failure to recognize pension costs as a liability on the financial
    statements, was also identified in our audit report on the National Defense Stockpile
    Transaction Fund Financial Statements for FY 1996 (see Part I.B. for the compliance
    issues we identified).

    Finally, the financial management systems did not comply with Federal requirements,
    applicable Federal accounting standards, and the U.S. Government Standard General
    Ledger at the transaction level. With respect to items not tested, we found nothing that
    caused us to believe that management had not complied in all material respects with the
    provisions previously identified.

    Summary of Recommendations. We recommend that the Director, Defense Finance
    and Accounting Service Columbus Center, assume responsibility for collecting of all
    accounts receivable. We recommend that the Administrator, Defense National
    Stockpile Center, and that the Director, Defense Finance and Accounting Service
    Columbus Center, promptly reverse accounts receivable on closed contracts and
    promptly post collections to Accounts Receivable. We also recommend that the
    Administrator, Defense National Stockpile Center, request written statements from the
    U.S. Mint on the total amount of silver in the Stockpile; recognize inventory losses;
    and prepare the FY 1998 Financial Statements in compliance with laws and regulations.
    Finally, we recommend that the Under Secretary of Defense (Comptroller) promptly
    transfer funds from the sale of certain stockpile commodities to the General Fund of the
    U.S. Treasury.

    Management Comments. The Director, Defense Logistics Agency, concurred with
    most of the recommendations, stating that the Defense National Stockpile Center would
    establish procedures for clearing completed contracts, request information about silver
    from the U.S. Mint, and take various steps to improve inventory valuation and
    financial statement compliance. The Defense Logistics Agency nonconcurred with our
    recommendation to change procedures to set a dollar threshold for the investigation and
    write-off of identified inventory shortages. The Defense Logistics Agency stated that it
    was more cost effective to perform computed counts rather than actual counts. In


                                               ii
addition, a fuced percentage of quantity is the only measurement that is not affected by
the variables of acquisition value or market value. The Defense Logistics Agency
concurred with the intent of our recommendation to accrue future environmental
cleanup costs as a contingent liability. The Defense Logistics Agency does not agree
that the amount of environmental cleanup is a contingent liability. The Defense
Logistics Agency agrees that there will be future operating costs and plans to use the
Treasury General Ledger Account, Accrued Cleanup Costs, to record estimated future
outlays. See Part I for a discussion of the management comments and Part III for the
text of the comments.

Audit Response. We consider the comments from the Director, Defense Logistics
Agency, to be partially responsive. We agree that computed counts are the only
practical method of counting many commodities, and that computed commodities are
not exact. However, we found cases where commodities were in such condition that a
carefully computed count could have been off by a large amount that would result in an
inaccurate adjustment being made to the inventory records. Further, some commodities
have consistently shown shortages over a period of years. Therefore, for these
commodities adjustments to inventory records should have been accomplished to meet
the Statement of Federal Financial Accounting Standards No. 3, “Accounting for
Inventory and Related Property, n October 27, 1993 requirements. In addition,
Standard No. 3 requires the relevant dollar value, which should be the lower of the
acquisition cost or market value. Therefore, the dollar value on the financial
statements must be a factor in determining whether to adjust the identified physical
shortages.

The environmental cleanup costs incurred by the Defense National Stockpile Center for
commodities stored do not meet the requirements of the Accrued Cleanup Costs
account. This particular account was established for the cleanup cost associated with
the “removing, containing, and/or disposing of hazardous materials associated with the
current portion of general or stewardship property, plant, and equipment operation. n
Since the estimated cost of future environmental cleanup does not meet the definition of
Accrued Cleanup Cost but does meet the definition for contingent liabilities, we believe
the contingent liability should be shown on the financial statements in accordance with
the Form and Content of Agency Financial Statement requirements.

We did not receive comments from the Under Secretary of Defense (Comptroller) and
the Director, Defense Finance and Accounting Service. We request comments on the
final report from the Under Secretary of Defense (Comptroller); the Director, Defense
Finance and Accounting Service; and additional comments from the Director, Defense
Logistics Agency, by August 25, 1998.




                                           ...
                                           111
Table of Contents
Executive Summary                                                            i

Part I - Audit Results
      Audit Background
      Audit Objectives

Part I.A. - Review of Internal Controls
      Introduction
      Reportable Conditions
      Finding A. Collection of Accounts Receivable
      Finding B. Reporting of Accounts Receivable
      Finding C. Accounting for Silver With the U.S. Mint

Part LB. - Review of Compliance With Laws and Regulations
      Introduction
      Reportable Noncompliance
      Finding D. Value of Inventory
      Finding E. Retention of Funds
      Finding F. Financial Statement Compliance With Regulations

Part IL - Additional Information
     Appendix A. Audit Process
       Scope
       Methodology
       Management Control Program
     Appendix B. Prior Audit Reports
     Appendix C. Principal Statements, Footnotes to Principal Statements,
                  and Audit Opinion
     Appendix D. Management and Legal Representation Letters
     Appendix E. Laws and Regulations Reviewed
     Appendix F. Report Distribution

Part III. - Management Comments
     Defense Logistics Agency Comments                                      54
Part I - Audit Results
Audit Background
    Introduction.    The Chief Financial Officers (CFO) Act of 1990, as amended by
    the Federal Financial Management Act of 1994, requires an annual audit of
    revolving funds such as the National Defense Stockpile Transaction Fund (the
    Fund). Our responsibility under the CFO Act is to render an opinion on the
    financial statements based on our audit, and to determine whether internal
    controls were adequate and whether management complied with applicable laws
    and regulations. The Defense Logistics Agency (DLA) and the Defense
    Finance and Accounting Service (DFAS) are jointly responsible for the
    information in the National Defense Stockpile Transaction Fund Financial
    Statements for FYs 1997 and 1996. The Defense National Stockpile Center
    (DNSC) serves as the national repository for raw materials that are critical to
    Defense industries in the event of a national emergency. In FY 1997,
    $4.1 billion of assets and $120 million of liabilities were reported for the
    National Defense Stoc ile Transaction Fund. Revenues from the sales of
    assets were reported atP 529.4 million.

    Accounting Policies. The Consolidated Financial Statements of the National
    Defense Stockpile Transaction Fund (the Fund) for FYs 1997 and 1996 were to
    be prepared in accordance with Office of Management and Budget (OMB)
    Bulletin No. 94-01, November 16, 1993, as amended by OMB Bulletin
    No. 97-01, October 16, 1996. These bulletins incorporate the concepts and
    standards in the Statements of Federal Accounting Concepts and Standards
    recommended by the Federal Accounting Standards Board, which are approved
    by the Secretary of the Treasury; the Director, OMB; and the Comptroller
    General of the United States. Footnote 1 of the FY 1997 National Defense
    Stockpile Transaction Fund Financial Statements discusses the significant
    accounting policies used to prepare the financial statements.

    Disclaher of Opinion. We were unable to render an opinion on the FY 1997
    National Defense Stockpile Transaction Fund Financial Statements because we
    could not verify the inventory valuation and confiim the accounts receivable.
    We were unable to verify the inventory valuation because the results of bulk
    commodities measurements by the Army Corps of Engineers (the Corps) were
    not available by the date the opinion was issued. The Corps results were late
    because of difficulties with selecting the statistical sample and scheduling visits
    to sample sites by Corps personnel, subcontractors, and auditors, and because
    the opinion for this fiscal year was required to be issued earlier than in previous
    years.

    Because of the lack of data on bulk commodities, which account for
    approximately 39 percent of DNSC materials, we were unable to evaluate and
    project the results of the entire sample of DNSC materials. Therefore, we could
    not determine whether the on-hand quantities of Stockpile Materials (80 percent
    of total assets) were accurate. In addition, we were unable to confirm the
    accuracy of the Accounts Receivable (7 percent of total assets). We attempted
    to confirm Accounts Receivable as of September 30, 1997. However, we
    received responses from only 60 percent of the customers, and 42 percent of the


                                         2
     responses showed differences between the Government’s and customers’
     balances. See Appendix C for the Principal Statements and Audit Opinion.



Audit Objectives

     The overall audit objective was to determine whether the FY 1997 National
     Defense Stockpile Transaction Fund Financial Statements were presented fairly
     and in accordance with OMB Bulletin No. 94-01, as amended by OMB Bulletin
     No. 97-01. In addition, we assessed internal controls and compliance with laws
     and regulations and followed up on corrective actions from previous reports.
     Our review provided a reasonable basis for determining the adequacy of the
     internal controls and compliance with laws and regulations as they related to the
     financial statements. Part I.A. is our report on internal controls. Part LB. is
     our report on compliance with laws and regulations. Appendix A discusses the
     scope, methodology, auditing standards, accounting principles, and management
     control program. Appendix B provides a summary of prior audit coverage.




                                         3
Part I. A. - Review of Internal Controls
Review of Internal Controls


Introduction

      Audit Responsibilities. The audit objective was to determine whether
      management controls over transactions supporting the accounts in the FY 1997
      National Defense Stockpile Transaction Fund Financial Statements were
      adequate to ensure that the accounts were free of material error. In planning
      and performing our audit, we evaluated certain aspects of the internal controls
      established for the Fund. We performed this evaluation to:

             l   determine the auditing procedures necessary to render an opinion on
                 the financial statements: and

             l   determine whether internal controls had been established.

     Management Responsibilities. DLA management was responsible for
     establishing and maintaining internal controls over the Fund. This responsibility
     requires management to make estimates and judgments to assess the expected
     benefits and related costs of internal control policies and procedures. The
     objectives of internal control structure is to provide management with
     reasonable but not absolute assurance that:

             l   transactions are properly recorded and accounted for in order to
                 prepare reliable financial statements and maintain accountability over
                 assets;

             l   funds, property, and other assets are safeguarded against waste, loss,
                 unauthorized use, and misappropriation; and

             l   transactions, including those related to obligations and costs, are
                 executed in compliance with laws and regulations that could have a
                 direct and material effect on the financial statements, and are in
                 compliance with other laws and regulations that the OMB, the entity
                 management, or the Inspector General, DOD, have identified as being
                 significant and for which compliance can be objectively measured and
                 evaluated.

     Internal Control Elements. DOD Directive 5010.38, “Management Control
     Program,” August 26, 1996, and DOD Instruction 5010.40, “Management
     Control Program Procedures, n August 28, 1996, implement title 31, United
     States Code, section 3512 (31 U.S.C. 3512), which requires management to
     establish and maintain a comprehensive management control system that
     includes internal controls and to monitor and report on the system. The internal
     control structure consists of three elements.

             l   The control environment is the collective effect of various factors on
                 establishing, enhancing, or mitigating the effectiveness of specific
                 policies and procedures. Such factors include management’s
                 philosophy and operating style, the entity’s organizational structure,
                 and personnel policies and practices. The control environment



                                           6
                                               Review of Internal Controls


                 reflects the overall attitude, awareness, and actions of management
                 concerning the importance of controls and the emphasis placed on
                 them by the entity.

             l   Accounting and related systems are the methods and records
                 established to identify, assemble, analyze, classify, record, and report
                 on the entity’s transactions and maintain accountability for the related
                 assets and liabilities.

             l   Control procedures are the policies and procedures, in addition to the
                 control environment and accounting and related systems, that
                 management has established to provide reasonable assurance that
                 specific objectives will be achieved.

Reportable Conditions

     Our audit disclosed reportable conditions and a material internal control
     weakness under OMB Bulletin No. 93-06, “Audit Requirements for Federal
     Financial Statements,” January 8, 1993, as modified by OMB Bulletin
     No. 98-04, “Implementation Guidance for the Federal Managers’ Financial
     Integrity Act of 1996,” January 16, 1998. OMB Bulletin No. 98-04 was
     effective for the FY 1997 financial statements. OMB issued a memorandum
     dated September 9, 1997, providing interim implementation guidance for
     preparing the FY 1997 financial statements. Reportable conditions are matters
     coming to our attention relating to significant deficiencies in the design or
     operation of the internal controls that, in our judgment, could adversely affect
     the organization’s ability to effectively control and manage its resources and to
     ensure reliable and accurate financial information for use in managing and
     evaluating operational performance. A material weakness is a reportable
     condition in which the design or operation of the internal controls does not
     reduce to a relatively low level the risk that errors or irregularities could occur.
     Such errors or irregularities would be in amounts that would be material to the
     statements being audited, and would not be detected in a timely manner by
     employees in the normal course of performing their functions.

     Our consideration of internal controls would not necessarily disclose all
     reportable conditions, and would not necessarily disclose all reportable
     conditions that are considered to be material weaknesses. See Appendix A for a
     discussion of the internal controls assessed.

     Reportable conditions addressed in last year’s report continue to exist.
     Specifically, management needs to improve the collection of accounts receivable
 ’   (Finding A). In addition, a reportable condition exists in accounting for silver
     with the U.S. Mint (Finding C). A material internal control weakness exists in
     the reporting of accounts receivable (Finding B). As a result of the material
     weakness, we could not confirm the accounts receivable. This was a major
     reason for our disclaimer of opinion on the FY 1997 National Defense Stockpile
     Transaction Fund Financial Statements.




                                           7
           Finding A. Collection of Accounts
           Receivable
           Delinquent accounts and interest receivable of the Fund increased from
           $15.5 million reported on September 30, 1996, to $33.4 million on
           September 30, 1997. Of the $15.5 million reported on September 30,
           1996, $10.7 million was still due on September 30, 1997. Previous
           audit reports identified the same condition and recommended
           improvements in the collection and write off of accounts receivable.
           The collection of accounts receivable did not improve because DNSC did
           not finalize a new Concept of Operations between DNSC and the DFAS
           Columbus Center until late January 1998. Furthermore, DNSC and the
           DFAS Columbus Center did not develop procedures for improving
           collections and writing off accounts receivable until February 1998. The
           amount of receivables increased because of the lack of action by DNSC
           and the DFAS Columbus Center. Consequently, amounts legitimately
           due to DOD may become uncollectible and never recovered.


Recommendations in Prior Audit Reports
    Gur reports on internal controls for FYs 1995 and 1996 recommended that
    DNSC and the DFAS Columbus Center improve the collection and write-off of
    accounts receivable. Specifically, our FY 1996 report, Report No. 97-176,
    “Internal Controls and Compliance With Laws and Regulations for the National
    Defense Stockpile Transaction Fund Financial Statements for FY 1996,”
    June 25, 1997, recommended that DNSC and the DFAS Columbus Center
    revise their joint Concept of Operations to transfer responsibility for pursuing
    delinquent receivables to the DFAS Columbus Center. We also recommended
    that DNSC and the DFAS Columbus Center develop and adhere to a schedule
    for collecting and writing off the receivables. DLA concurred with both
    recommendations and estimated that corrective action would be complete by
    July 3 1, 1997. DFAS also concurred with both recommendations and gave an
    estimated completion date of August 29, 1997, for all corrective actions. In its
    second response dated November 24,1997, DFAS changed the estimated
    completion date to November 28, 1997. This response also stated that DNSC
    and the DFAS Columbus Center had agreed ,t.odivide the responsibility for the
    accounts receivable. DNSC would be responsible for all accounts receivable
    created before October 1, 1997, and the DFAS Columbus Center would be
    responsible for accounts receivable created after October 1, 1997. This
    agreement regarding old and new accounts receivable was not reflected in the
    subsequent Concept of Operations, and did not meet the intent of our
    recommendations.

    IG, DOD, Report No. 97-176 also recommended that the DFAS Columbus
    Center research and actively pursue the collection of delinquent accounts
    receivable as of September 30, 1996, regardless of the date created; write off
    receivables determined to be uncollectible; and refer receivables of more than



                                        8
                                   F’inding A. Collection of Accounts Receivable


     $600, and not considered uncollectible, to the DFAS Columbus Center’s Debt
     Management Office. The first response from the DFAS Columbus Center
     concurred with all recommendations and gave an estimated completion date of
     October 3 1, 1997, subject to revision of the Concept of Operations and receipt
     of the necessary records from DNSC. The second response specified the same
     conditions and revised the estimated completion date to November 28, 1997.


Concept of Operations
     DNSC and the DFAS Columbus Center did not complete their revision of the
     Concept of Operations until late January 1998. The delay occurred because
     DNSC and the DFAS Columbus Center management did not place sufficient
     emphasis on its completion. The Concept of Operations covers accounts
     receivable and many other aspects of the interaction between DNSC and the
     DFAS Columbus Center. It makes the DFAS Columbus Center responsible for
     handling all delinquent accounts; DNSC is responsible only for providing
     information and coordinating inquiries and resolution. The Concept of
     Operations states that the DFAS Columbus Center should adhere to
     DOD Regulation 7000.14-R, “DOD Financial Management Regulation, n
     volume 4, chapter 3, “Receivables, n January 1995. DNSC is not responsible
     for receivables arising before October 1, 1997. However, DNSC and the
     DFAS Columbus Center have both confirmed that DNSC is responsible for
     receivables created before October 1, 1997, as stated in the second DFAS
     response to IG, DOD, Report No. 97-176.


Overall Progress on Collections
     The division of responsibility between DNSC and the DFAS Columbus Center
     for receivables was contrary to the previously agreed-upon recommendation that
     the DFAS Columbus Center take full responsibility. The results showed that
     the agreement, which was not part of the Concept of Operations, was
     unsatisfactory. Neither organization took action before February 1998, when
     key employees of DNSC and the DFAS Columbus Center met at the DFAS
     Columbus Center to develop procedures for implementing the new Concept of
     Operations. As of January 31, 1998, the delinquent receivables had been
     reduced to $26.1 million, compared to $33.4 million as of September 30, 1997.
     However, this was still significantly more than the $15.5 million in delinquent
     receivables as of September 30, 1996. We had expected that the delinquent
     receivables would be significantly reduced from the September 30, 1996, level.
     The DOD Financial Management Regulation gives specific guidance for
     handling delinquent receivables; DNSC and the DFAS Columbus Center should
     not have waited until the Concept of Operations was finalized in order to take
     action on the receivables.




                                        9
FIncling A. Collection of Accounts Receivable


Referrals to Debt Management Offke
      DNSC referred its first receivables to the Debt Management Office in
      March 1998; those receivables should have been referred earlier. IG, DOD,
      Report No. 97-176 discussed unsuccessful efforts to refer to the Debt
      Management Office about $2.8 million in delinquent receivables for diamond
      contracts. On March 6, 1998, DNSC referred these debts to the Debt
      Management Office. The DOD Financial Management Regulation, volume 10,
      chapter 18, “Contractor Debt Collection,” February 1996, requires that any
      debt of $600 or greater that has not been resolved after two collection letters
      must be transferred to the Debt Management Office. Public Law 104-304, the
      “Debt Collection Improvement Act of 1996,” April 25, 1996, requires nontax
      debts delinquent for 180 days to be transferred to the Department of the
      Treasury. At the discretion of the Secretary of the Treasury, the referral may
      be to a debt collection center of an Executive department or agency. DNSC
      took excessive time to refer these receivables. Also, numerous other debts of
      $600 or more were not referred to the Debt Management Office.


Closed Contracts Cited in 1995 Audit Report
      Our FY 1995 report identified 2 1 closed contracts with outstanding accounts
      receivable valued at $206,366. Only one of these, a minor item valued at
      $1,489, is no longer outstanding. The total of the 20 remaining contracts has
      increased by $108,051 to $312,928. Fifteen of the 20 contracts, valued at
      $242,467, belong to a contractor who has had a claim of over $202,000 against
      the Government since 1993. DNSC has attempted to resolve this claim since
      we confirmed the accounts receivable with the client; however, the claim should
      not have been unresolved since 1993. Two other contracts, valued at $61,530,
      are among the diamond contracts that have been referred to the Debt
      Management Office, as previously discussed. No action has been taken on the
      remaining three contracts, valued at $8,931.


Conclusion
      Collectible amounts legitimately due to DoD will become uncollectible if
      delinquent collections are not pursued and debts are not referred to the Debt
      Management Office. Additionally, the accounts receivable in the financial
      statements were overstated; as a result of the lack of followup on receivables,
      some amounts that are not legitimately due continue to be recorded as
      receivables. See Finding B for a complete discussion of followup issues.




                                          10
                                     Findiw A. Collection of Accounts Receivable



Management Comments on the Finding and Audit Response
    Management Comments on Collection of Accounts Receivable. DLA
    partially concurred with the finding, stating that the increase in delinquent
    receivables was caused by untimely contract administration, resulting from a
    substantial increase in the contracting workload during FY 1997. DLA
    management did not agree that the delay in ftiizing      the Concept of Operations
    had a negative effect on contract administration and therefore on the status of
    accounts receivable. DLA stated that DNSC management is evaluating the
    recommendations from the February 1998 visit to the DFAS Columbus Center
    to improve contract administration procedures. DLA also stated that
    implementing these procedures should reduce the inaccurate accounts receivable
    balances discussed in Finding B of this report. DLA believes that transferring
    collection responsibility for the older receivables to DFAS Columbus Center
    would be effective, but only after DLA improves the accuracy of the receivable
    balances.

    Audit Response. We believe that transferring the collection responsibility to
    the DFAS Columbus Center is the most effective way to expedite improvements
    in collections. In response to our FY 1995 report, DNSC did not improve the
    accuracy of the receivable balances during FY 1996, when the contracting
    workload was lower. We recommended the transfer of collection responsibility
    in our FY 1996 report, in order to encourage the resolution of delinquent
    balances as a result of DFAS collection procedures. Any problems caused by
    DFAS pursuing inaccurate receivables could be resolved. In response to the
    FY 1996 report, DNSC did not send the team to the DFAS Columbus Center
    until February 1998, after finalization of the Concept of Operations, and as of
    May 1998, no improved contract administration procedures had been
    implemented. As stated earlier, the level of delinquent receivables, instead of
    declining, has increased significantly. Therefore, we have not changed our
    recommendations to DFAS.



Recommendations for Corrective Action

    A. We recommend that the Director, Defense Finance and Accounting Service
    Columbus Center:

             1. Assume responsibility for all accounts receivable and related interest
    collections, including those amounts that became due before October 1, 1997.

           2. Pursue the collection of the receivables, refer appropriate receivables to
    the Debt Management Office, and write off accounts receivable as appropriate.




                                          11
FInding A. Collection of Accounts Receivable


Management Comments Required
      The Director, DFAS, did not comment on a draft of this report. We request
      that the Director, DFAS, provide comments on the final report.




                                        12
            Finding B. Reporting of Accounts
            Receivable
           The $281.2 million in Accounts Receivable and Interest Receivable
           reported on the FY 1997 National Defense Stockpile Transaction Fund
           Financial Statements was overstated by approximately $9.7 million.
           This occurred because charges that should have been reversed by
           September 30, 1997, were not reversed, and cash received had not been
           posted as of September 30, 1997. Therefore, Accounts Receivable and
           the Net Position of the Fund were overstated by approximately
           $2.6 million in receivables that should have been reversed. In addition,
           Accounts Receivable were overstated by $7.1 million for cash received
           but not posted; Fund Balance with Treasury was understated by the same
           amount; and there was increased potential for problems in determining
           the amounts owed by contractors.


Confirming Accounts Receivable
    As part of our audit of the FY 1997 Fund Financial Statements, we requested
    confirmation from 55 contractors, representing 97 percent of the dollar value of
    receivables. We received responses from 60 percent of the contractors to whom
    we sent requests for confirmation. Of those who responded, 42 percent did not
    agree with the DNSC figures. In most cases where contractors disagreed, the
    contractors were found to be correct; DNSC continues to research the other
    cases. The balances confirmed as incorrect total $9.2 million, and the
    receivables being researched total $.5 million. Of the $9.2 million,
    $2.1 million represented receivables that should have been reversed as of
    September 30, 1997; if the contractors are correct, the $.5 million being
    researched will also need to be reversed. The amounts were not reversed
    because DNSC did not follow up to ensure that $2.3 million remaining on
    completed contracts was removed from accounts receivable and that $.3 million
    in related interest and storage charges was reversed. The other $7.1 million of
    the $9.2 million represented cash that had been received as of September 30,
    1997, but not posted. The cash collections were not posted because of delays in
    the posting process that have since been solved.

    Receivables That Should Have Been Reversed. At the time a sales contract is
    awarded, DNSC recognizes revenue from the sale of excess material and
    generates an account receivable. The contractor often does not remove the
    material until much later. The price of some commodities is so volatile that it is
    often not set at the time the contract is awarded, but is indexed to a market
    indicator that is determined close to the time of removal. Also, with many
    commodities, it is impossible for the contractor to remove a precise quantity.
    For these reasons, the amount established as a receivable at the time’the contract
    is awarded is usually an estimate, and the actual amount sold is usually more or
    less than the estimate. When the amount sold is more than the estimate, the
    contractor is billed for additional sales; when it is less, the overestimate must be



                                         13
Finding B. Reporting of Accounts
                              Receivable


     removed from sales and receivables. Part I. B. of this report, “Review of
     Compliance With Laws and Regulations,” discusses the need for a change in the
     timing of revenue recognition. Of the $2.6 million that should be reversed,
     $2.3 million was from contracts that were complete but had not been removed
     from Accounts Receivable. DNSC also charges for storage when contractors do
     not remove material by the agreed-upon date, and charges interest on delinquent
     receivables. Of the $2.6 million that should be reversed, $.3 million
     represented storage or interest charges.

     Unposted Collections. Most of the $7.1 million in unposted collections
     occurred because the DFAS Columbus Center cannot fully post cash collections
     until they receive confiition   from the Department of the Treasury; in one
     case, the delay was caused by DNSC and DFAS. Because of the delay, the
     DFAS Columbus Center posts the collections manually to the contractors’
     accounts for billing purposes, but does not post them to the official subsidiary
     accounts receivable ledger. Therefore, the DFAS Columbus Center has two
     subsidiary accounts receivable ledgers, one ledger shows amounts actually
     received, and the other shows amounts officially posted.

     Because the amounts collected were known, the financial statements should have
     been adjusted. To eliminate the delay in posting, the DFAS Columbus Center
     has begun posting collections to an undeposited collections account so that
     accounts receivable will reflect actual collections. The plan is to clear this
     account after confirmation from the Department of the Treasury is received and
     cash can be fully posted. This practice should eliminate the need for two
     subsidiary ledgers and for any special year-end adjustment to future financial
     statements.


Conclusion
     Because of the delays in writing off uncollectible or invalid receivables, the
     Accounts Receivables and Net Position of the FY 1997 Fund Financial
     Statements were overstated by $2.1 million to $2.6 million. The amount of
     overstatement may be much higher; we did not send requests for confirmation
     to all contractors, and some contractors did not respond to our requests. The
     uncertainty of the amount of overstatement was a major reason for our
     disclaimer of opinion on the financial statements. Because of the delays in
     posting collections, Accounts Receivable was overstated by $7.1 million, and
     Fund Balance With Treasury was understated by $7.1 million, on the FY 1997
     Fund Financial Statements. The delays also increased the potential for billing
     errors because of the need to maintain a second, unoffkial set of records for
     billing purposes.


Management Comments on the Finding and Audit Response

     DLA Comments on Materiality of Internal Control Wealmess. DLA
     partially concurred that this finding constituted a material internal control


                                          14
                                   Findiug B. Reporting of Accounts Receivable


    weakness, as stated in Appendix A and the introduction to Part I.A. of this
    report. The basis of the partial nonconcurrence is that DLA does not believe
    that the fmding requires attention at the next higher level of management, as
    required by DOD Instruction 5010.40. Specifically, DLA does not believe that
    the finding requires attention outside the Office of Stockpile Contracts.

    Audit Response. We believe that attention from top DNSC management is
    needed to ensure that DNSC achieves and maintains the prompt clearing of
    completed contracts and related storage and interest charges. Management is
    implementing the recommendation to bring the issue to the attention of the
    Administrator, DNSC; therefore, the finding is receiving attention outside the
    Office of Stockpile Contracts, and we consider this issue resolved.


Recommendations and Management Comments

    B.l. We recommend that the Admiuistrator, Defense National Stockpile
    Center, establish procedures for promptly clearing completed contracts and
    forwarding information to tbe Defense F’iuauce and Accounting Service
    Columbus Center for the reversal of contract amounts and related storage
    and interest charges.

    Mauagement Comments. The Defense Logistics Agency concurred and stated
    that, as addressed in the management comments on Finding A, DNSC
    management is evaluating recommendations resulting from a February 1998
    visit of DNSC personnel to the DFAS Columbus Center. DNSC management
    plans to establish procedures to improve contract administration, including the
    prompt clearing of completed contracts and forwarding information to DFAS
    Columbus Center. The estimated completion date is August 30, 1998.

    B.2. We recommend that the Director, Defense F’iuauce and Accounting
    Service Columbus Center:

           a. Periodically confirm accounts receivable with contractors and
    resolve any differences.

           b. As part of accounts receivable collection, actively inquire about
    receivables that may need to be reversed.

           c. Continue to post known collections to the Undeposited Collections
    account if they cannot be fully posted, post a corresponding amount to
    Accounts Receivable, and monitor the Undeposited Collections account to
    ensure that it is cleared when the collections are fully posted.


Management Comments Required
    The Defense Finance and Accounting Service did not comment on a draft of this
    report. We request that the Defense Finance and Accounting Service provide
    comments on the final report.



                                       15
           Finding C. Accounting                             Silver With
           the U.S. Mint
           DNSC does not adequately manage its silver commodity. Specifically,
           DNSC does not receive any statements from the U.S. Mint (the Mint) on
           the amount of silver accountable to the Mint or on consignment. The
           Fund has a significant liability for silver that it received without
           reimbursing the Mint. DNSC also has an asset account for a portion of
           silver that the Mint has taken back on consignment in order to make
           commemorative coins. The Mint does not provide confirmation because
           neither organization has addressed the issue of documentation needed to
           support these transactions. As a result, DNSC managers do not know
           whether their records are accurate, or whether any discrepancies exist
           that require corrective action.


Commemorative Coin Program
    According to unofficial records at DNSC, in 1968, the Mint transferred
    168,000,000 fine Troy ounces of silver to DNSC without reimbursement. At
    that time, the value was fixed at $1.292929292 per ounce. DNSC and the Mint
    agreed that DNSC would eventually pay the Mint for the silver at that price.
    DNSC carries the total remainin g balance of the silver as a liability at
    $1.292929292 per ounce. This liability of about $51.8 million is the major part
    of the $60.6 million Intragovernmental Accounts Payable on the FY 1997 Fund
    Financial Statements. Except for the amount on consignment to the Mint, the
    liability should be offset by an equal amount in the Stockpile Materials account.

    In 1985, the Mint began using some DNSC silver for commemorative coins.
    Periodically, the Mint requests and takes a quantity of silver on consignment to
    manufacture commemorative coins. In accounting records and financial
    statements, DNSC moves the total dollar value, at $1.29293 per ounce (the
    DNSC inventory system accommodates only 5 decimal places in the unit cost
    field), from Stockpile Materials to Advances and Prepayments. See Finding F
    for a discussion of the use of this account.

    Each month, the Mint reports the coins actually sold and the number of ounces
    of silver used. The Mint remits funds to DNSC at the current market value,
    now much higher than $1.292929292 per ounce, minus the original cost, and
    also minus refining and transportation charges. DNSC records the entire market
    value of the silver as Intragovernmental Revenue, records the original cost of
    $1.292929292 per ounce as Cost of Goods Sold, and records other charges as
    Program or Operating Expenses. The remainder is the amount of cash actually
    received. At the same time, DNSC reduces both Advances and Prepayments
    and Other Government Liabilities for the number of ounces sold at
    $1.292929292 per ounce.




                                        16
                            Finding C. Accounting for Silver With the U.S. Mint


Written Confiiiation          To Support Silver
     General Absence of Confirmation. The Mint provides statements of quantities
     of silver taken into consignment and quantities of coins sold, but no statements
     of the remaining quantities on consignment or the quantities not yet taken into
     consignment. An official at the Mint stated that the Mint has its own records of
     both amounts, and neither organization had considered providing or requesting
     regular written statements of balances.

     The Mint provided us with a written statement as of September 30, 1997. After
     accosting for a timing difference in the coin sales for September 1997, the
     amount on consignment was only $37.09 more on DNSC records than on the
     Mint’s records. However, the amount not yet taken into consignment was
     $70,544.37 more on DNSC records than on the Mint’s records. The Mint
     found about $62,000 of this discrepancy in an error in its records, and planned
     to correct the error.

     Negative Consignment Balance. As of September 30, 1996, the DNSC
     consignment balance was negative, and was listed as a negative ‘Advances and
     Prepayments” on the FY 1996 Fund Financial Statements. The negative
     balance implied that the Mint had paid DNSC for more silver than it had taken
     on consignment. DNSC had no written documentation to support this position.

     DNSC believed that the Mint does not physically separate the DNSC
     consignment silver from other silver. Also, DNSC believed that the negative
     balance arose because the Mint ran out of DNSC silver and used other silver for
     commemorative coins, paying DNSC later for coins sold made with the other
     silver. Officials from the Mint confilmed this explanation, adding that the
     anomalous balance shows up in the Mint’s accounting records as it does in
     DNSC records. In early 1997, the Mint took more silver on consignment.
     After this transaction was posted, DNSC no longer had a negative consignment
     balance. The Mint officials stated that the Mint has recently instituted a
     procedure to ensure that it takes additional DNSC silver on consignment before
     the balance can become negative again.


Conclusion
     Because of the lack of written confirmation from the Mint on the amounts of
     siiver in each category, DNSC does not have assurance that the Mint’s balances
     agree with DNSC balances. The Mint and DNSC should agree on the amount
     of silver on consignment because DNSC expects to be paid for that amount of
     silver in the near future, when coins are sold. The two organizations should
     also reconcile their accounts because the Mint does not physically segregate the
     DNSC silver. The Mint and DNSC should also agree on the quantity of
     remaining silver, because the Mint eventually expects to receive all of the
     DNSC silver at the discount of $1.292929292 per ounce, and DNSC




                                        17
Finding C. Accounting for Silver With the U.S. Mint


      eventually expects to be paid for all of it. The negative amount on the FY 1996
      Fund Financial Statements was unclear to the users of the financial statements,
      and DNSC still has no assurance that the explanation is correct.


Recommendations and Management Comments
      C. We recommend that the Adminktrator, Defense National Stockpile
      Center:

              1. Request that the U.S. Mint provide periodic written statements on the
      total amount of silver at the Defense National Stockpile Center and the amount on
      consignment.

             2. Request that the U.S. Mint provide a written explanation of the negative
      consignment balance as of September 30, 1996.

      Management Comments. DLA concurred and stated that DNSC will request
      from the Mint both a consignment balance as part of the Mint’s monthly report
      of sales, and a written verification of the remaining inventory balance following
      the release of silver for consignment. DNSC will reconcile any differences
      immediately. DNSC will also ask the Mint to provide a written explanation of
      the circumstances that resulted in a negative consignment balance as of
      September 30, 1996. The estimated completion date is September 30, 1998.




                                          18
Part I. B. - Review of Compliance With Laws
and Regulations
Introduction
     We reviewed compliance with applicable laws and regulations to obtain
     reasonable assurance that the financial statements were free of material
     misstatements, not to render an opinion on the overall compliance with such
     provisions. As part of obtaining reasonable assurance that the financial
     statements were free of material misstatements, we reviewed compliance with
     laws and regulations directly affecting the financial statements and with other
     laws and regulations designated by OMB and DOD. The Chief Financial
     Officer, DOD; the Director, DFAS; the Director, DLA; the Comptroller, DLA;
     and DNSC management are responsible for ensuring compliance with laws and
     regulations applicable to the Fund. See Appendix E for a list of the laws and
     regulations we reviewed.


Reportable Noncompliance
    Material instant of noncompliance are failures to follow requirements, laws,
    or regulations that would cause us to conclude that the aggregation of the
    misstatements resulting from those failures is either material to the financial
    statements, or that the sensitivity of the matter would cause others to perceive it
    as significant. Our reviews indicate that management generally complied with
    the selected provisions of laws and regulations as they pertained to the accuracy
    of the financial statements. We did not detect any instances of material
    noncompliance. However, DNSC did not comply with guidance on material
    with a value lower than its acquisition cost, funds from the sale of certain
    commodities, and the preparation of facial       statements. A compliance issue
    regarding the recording of pension expenses in the financial statements was
    previously identified in the audit of the FY 1996 Fund Financial Statements.

    The Fund also did not comply with the DOD Financial Management Regulation,
    volume 4, chapter 3, and volume 10, chapter 18, as related to the internal
    control weaknesses in Part I.A. These compliance issues were previously
    identified in the audit of the FY 1996 Fund Financial Statements. Compliance
    issues identified during our review did not have a material impact on the overall
    financial statements. With respect to the items not tested, we found nothing that
    caused us to believe that the Fund managers had not complied, in all material
    respects, with the provisions identified above.

    Material with a Value Lower Than Acquisition Cost. DNSC did not reduce
    the value of Stockpile Materials for commodities that had declined in value
    below acquisition cost or had known shortages. Therefore, DNSC did not
    comply with Statement of Federal Financial Accounting Standards (SFFAS)
    No. 3, “Accounting for Inventory and Related Property,” October 27, 1993.
    The noncompliance is discussed in detail in Finding D.




                                        20
                          Review of Compliance With Laws and Regulations


Retention of Funds From the Sale of Certain Commodities. According to
Public Law 104-201, “National Defense Authorization Act for Fiscal Year
1997, n September 23, 1996, DNSC should have transferred funds collected
from the sale of certain commodities to the General Fund of the U.S. Treasury.
DNSC inappropriately maintained a portion of these funds. The noncompliance
is discussed in detail in Finding E.

Financial Statement Compliance With Regulations. DNSC did not fully
comply with the DOD Financial Management Regulation, volume 6, chapter 6,
“Form and Content of Audited Financial Statements,” January 1998.
Chapter 6, although dated January 1998, was in effect for the financial
statements prepared for FY 1997. DNSC had draft guidance that was to be
used in preparing the financial statements. We used the draft guidance and
reviewed the final version, dated January 1998, to ensure that there was no
effect on our findings. The financial statements did not comply with the
regulations when recognizing pension expenses and the liability for
environmental cleanup; classifying silver on consignment to the U.S. Mint; and
allocating amounts to Cumulative Results of Operations. We also identified the
issue of pension cost in our audit of the FY 1996 Fund Financial Statements.
The noncompliance is discussed in detail in Finding F.

Collection of Accounts Receivable. DNSC and the DFAS Columbus Center
did not comply with DOD Financial Management Regulation, volume 4,
chapter 3, and volume 10, chyter 18; and with Public Law No. 104-304, the
“Debt Collection Act of 1996, April 25, 1996, for the collection of accounts
receivable and the referral of delinquent receivables to the DFAS Columbus
Center’s Debt Management Office. Problems with delinquent accounts
receivable were also identified in the audit of the FY 1996 Fund Financial
Statements. Finding A discusses the collection of accounts receivable.

Revenue Recognition. For disposal sales of excess material, DNSC recognizes
revenue and the related receivable at the time the contract is awarded. DNSC
implemented this practice in accordance with DoD 7220-M, the “DOD
Accounting Manual,” chapter 64, “Revenues,” October 1983. Beginning in
FY 1994, SFFAS No. 3 required that when stockpile material is sold, the cost
of goods sold must be recognized at the time the title passes or goods are
delivered. To match revenues and expenses correctly, revenues and cost of
goods sold must be recognized at the same time. In FY 1997, DNSC
recognized revenues and cost of goods sold at the same time; however this was
done at the time the contract was awarded, not at the time the title passed or
goods were delivered, contrary to SFFAS No. 3. Beginning in FY 1998,
SFFAS No. 7, “Accounting for Revenue and other Financing Sources and
Concepts for Reconciling Budgetary and Financial Accounting,” May 10, 1996,
requires revenue recognition at the time of delivery of goods or services. DNSC
plans to conform with both SFFAS No. 3 and No. 7 in FY 1998.

Although the method of revenue recognition on the FY 1997 Fund Financial
Statements was not in compliance with SFFAS No. 3, this report contains no
fmdings or recommendations on revenue recognition. The actions planned by
DNSC to meet the requirements of SFFAS No. 7 should also meet the



                                  21
Review of Compliance With Laws and Regulations


      requirements for the FY 1998 financial statements. Any effect on financial
      disclosures in FY 1997 and earlier should be shown as prior-period adjustments
      in FY 1998.

      Title 31, U.S.C. 3512, “Federal Financial Management Improvement Act of
      1996.” On September 9, 1997, the Office of Management and Budget (OMB)
      issued a memorandum, “Implementation Guidance for the Federal Financial
      Management Improvement Act (FFMIA) of 1996.” The FFMIA requires
      Federal agencies to implement and maintain financial management systems that
      comply substantially with Federal requirements for financial management
      systems, applicable Federal accounting standards, and the U.S. Government
      Standard General Ledger (USGSGL) at the transaction level. The FFMIA also
      requires that we report on agency compliance with Federal requirements and
      accounting standards and the USGSGL. These requirements are
      well-established in the following Federal policy documents.

             l   OMB CircuIar No. A-127, “Financial Management Systems,”
                 July 23, 1993, establishes Government policy for developing,
                 evaluating, and reporting on financial management systems. It
                 requires financial management systems to provide complete, reliable,
                 consistent, timely, and useful information. To achieve this goal,
                 DOD and other Federal agencies must establish and maintain a single,
                 integrated financial management system using the USGSGL.

             l   OMB Circular No. A-134, “Financial Accounting Principles and
                 Standards,” May 20, 1993, establishes policies and procedures for
                 approving and publishing financial accounting principles and
                 standards. It also establishes the policies that Executive agencies and
                 OMB are to follow in seeking and providing interpretations and other
                 advice related to the standards.

             l   The Joint Financial Management Information Program (JFMIP) is a
                 cooperative undertaking of the OMB, the Department of the Treasury,
                 and the Office of Personnel Management, working with each other
                 and with operating agencies to improve facial  management
                 practices throughout the Government. The JFMIP has published a
                 series of “Federal Financial Management System Requirements.”

            l    The “Core Financial System Requirements,” September 1995, which
                 are part of the JFMIP “Federal Financial Management System
                 Requirements, n establish standard requirements for the foundation
                 modules of an agency’s integrated financial management system.
                 These requirements state that a financial management system must
                 support the partnership between program and financial managers and
                 assure the integrity of information for decisionmaking and
                 performance measurements.

     As part of our audit to obtain reasonable assurance about whether the FY 1997
     NationaI Defense Stockpile Center Transaction Fund Financial Statements are
     free of material misstatement, we performed tests of compliance with certain
     provisions of laws and regulations when noncompliance could have a direct and


                                          22
                          Review of Compliance With Laws and Regulations


material effect on the determination of amounts in the financial statements. We
also tested compliance with other laws and regulations specified in OMB
Bulletin No. 93-06, as modified by OMB Bulletin No. 98-04. In planning and
performing our tests of compliance, we considered the implementation guidance
issued by OMB on September 9, 1997, relating to the FFMIA.

Weaknesses in DOD accounting systems have been reported since we began
auditing DOD financial statements, as required by the CFO Act. Data from the
deficient systems were used to prepare the FY 1997 Fund Financial Statements.
DFAS and DNSC acknowledged that the Standard Army Financial System
(STANFINS) Redesign Subsystem One was not in compliance with accounting
requirements.

Until a migratory strategy is established and accounting systems are selected,
DNSC management will not be able to determine the time frames and costs of
installing accounting systems that comply with the Chief Financial Officers Act
of 1990 and the FFMIA and can produce auditable financial statements.

Conclusion. DNSC and the DFAS Columbus Center should implement the
regulations, standards, and generally accepted accounting principles discussed in
Parts I.A. and I.B. to resolve problems with the collection of accounts
receivable, valuation of inventory, transfer of funds from the sale of certain
commodities, preparation of the financial statements, and recognition of
revenue. The findings in this report include recommendations for each
compliance issue, except for revenue recognition and the allocation of funds to
Cumulative Results of Operations.




                                   23
            Finding D. Value of Inventory
           The DNSC Master Inventory File (MIF) and an inventory line item
           account on the FY 1997 Fund Financial Statements, Stockpile Materials,
           were overstated. This occurred because DNSC did not take timely
           action to decrease the carrying value of inventory that had declined in
           value or to write off identified inventory shortages. Specifically, DNSC
           did not decrease the carrying value of inventory that had declined in
           value because DNSC employees were not aware of the requirement.
           DNSC did not write off identified shortages because DNSC had no
           procedures to track and ensure that depleted commodities were written
           off. In addition, DNSC procedures did not require action on most
           shortages that are a small percent of total quantity, regardless of the
           dollar amount, and DNSC personnel believed that missing material may
           be located, which could reduce the shortages. As a result, Stockpile
           Materials and Net Position, two line items on the FY 1997 Fund
           Financial Statements, were overstated by at least $90.0 million. This
           represented 2.7 percent of the $3.32 billion in Stockpile Materials.
           Furthermore, the lack of action on identified shortages delayed any
           investigation and decreased the likelihood of recovering any material.


Disclaimer of Opinion
    Our disclaimer of opinion on the FY 1997 Fund Financial Statements was
    largely based on the fact that we did not have data on bulk commodities in our
    statistical sample; therefore, we could not project the sample results to the entire
    Stockpile Materials line item account. The next section discusses specific
    adjustments that should be made to Stockpile Materials and is not based on
    projection of the sample, although some items were part of the sample.


Inventory Vahation
    Criteria.    SFFAS No. 3 states that in FY 1994, for stockpile materials that
    have declined in value below original cost, the decline in value should be
    removed from the carrying value of the inventory and should be recognized as a
    loss in the period in which the loss occurs.

    Commodities That Have Declined in Value. DNSC personnel stated that at
    least three commodities were excess to national defense requirements, but could
    not be sold because of environmental restrictions. The commodities were
    asbestos, mercury, and thorium nitrate. These commodities represented
    $52.9 million on the FY 1997 Fund Financial Statements, but had no realizable
    value. DNSC personnel believed that additional commodities had also declined
    in realizable value below the original cost at which they were valued on the
    financial statements. DNSC should recognize the loss for all materials that have


                                         24
                                                      Finding D. Value of Inventory


     declined in value below the acquisition cost, in accordance with SFFAS No. 3,
     and should begin by writing off the entire value of commodities with no
     realizable value. The loss from writing off the recorded value would be in
     addition to any estimated costs of environmental cleanup of the commodities.
     Finding F discusses environmental cleanup costs. Since September 30, 1997,
     DNSC has disposed of and written off asbestos valued at $367,388, incurring
     disposal expenses of $370,000. As required by SFFAS No. 3, DNSC should
     not wait until disposal to write off the carrying value of the hazardous material.
     Because the necessary adjustments had not been made for FY 1997, the values
     of Stockpile Materials and Net Position on the FY 1997 Fund Financial
     Statements were overstated by at least the $52.9 million for the commodities
     with no realizable value.

     DNSC periodically reports to Congress on the market value of commodities. In
     addition to asbestos, mercury, and thorium nitrate, DNSC reported that jewel
     bearings had no market value as of September 30, 1997. The acquisition value
     of jewel bearings reflected in the FY 1997 Fund Financial Statements is about
     $36 million. This amount also represents an overstatement of Stockpile
     Materials and Net Position.


Identified Inventory Shortages
     Depleted Material Pending Write-off.      Although SFFAS No. 3 does not
     specifically mention shortages, missing material is not available and is no longer
     of any value to the Government. When the entire amount of a bulk commodity
     has been shipped, a positive or negative balance usually remains on the
     inventory records. This condition is expected because the material has been
     exposed to the elements for a number of years and can absorb moisture, the
     weight increases, or sinks into the ground, causing the weight actually available
     for shipment to decrease. DNSC places such balances in a special class in the
     MIF pending write-off of the positive or negative balance. DNSC includes the
     net amount of these balances in the Fund financial statements.

    To determine whether items were correctly placed in the special class for
    material pending write-off, we reviewed the four largest balances in that class,
    as shown by the MIF on May 31, 1997. Three balances were positive,
    indicating shortages, and one was negative, indicating an overage. We
    confirmed that all four balances represented no actual material. In three of the
    four cases, the entire amount of material had been shipped, but its value had not
    been written off as of March 1998. The overage amounted to $171,004, and
    the two shortages totaled $235,925. The situation regarding the fourth
    discrepancy is described below.

    The largest of the four balances was for nickel valued at $448,590 that was
    stored at the DNSC depot at Ravenna, Ohio. DNSC provided records
    indicating that a theft of this material was suspected and investigated in 1979,
    before the bulk commodities were transferred to DOD from the General Services
    Administration (GSA). The nickel was stored in a tank, and the amount stolen


                                         25
F’inding D. Value of Inventory


      could not be determined without removing the nickel from the tank and
      weighing it. GSA had not determined the amount stolen. During January
      through March 1995, the nickel from this tank was moved to the DNSC depot
      at Warren, Ohio. The nickel was weighed as it was removed, and the recorded
      balance of nickel was reduced by the amount removed. After removal, records
      for the DNSC depot at Ravenna had a balance of 820,897 pounds of nickel
      valued at $488,590. In March 1995, DNSC employees knew that this material
      would not be recovered, but as of March 1998, the value of the nickel had not
      been written off.

      As of September 30, 1997, DNSC had 100 balances pending write-off with a
      value (shortages minus overages) of $380,233, including the balances discussed
      above. Therefore, the Stockpile Materials and the Net Position of the Fund
      were overstated by $380,233 in the FY 1997 Fund Financial Statements.

      Additionally, not all material pending write-off had been placed in the special
      class. We reviewed MIF data on material with a combined weight of
      31,084,640 pounds, valued at $516,843, which had been completely shipped by
      May 31, 1997, but had not been placed in the special class for write-off as of
      March 1998. The Stockpile Materials and the Net Position of the Fund were
      overstated by $5 16,843 for this material. Other MIF data may also exclude
      nonexistent material.

      Physical Shortages IdentXed in Audit Sample. For physical verification, we
      selected a statistical sample of items from the MIF extract of May 31, 1997.
      We found two significant shortages in the countable sample items: lead at the
      DNSC depot at Hammond, Indiana, and zinc at the DNSC depot at New Haven,
      Indiana. For both of these items, shortages had already been identified in
      Quality Assurance reviews performed by DNSC. However, according to the
      Quality Assurance review, the shortage at the DNSC depot in Hammond was
      much less than what we identified. In accordance with DNSC procedures, no
      action had been taken on the shortages identified by the Quality Assurance
      review because they were within the prescribed percentage (2 percent for some
      commodities and .5 percent for others) of the total quantity of those
      commodities.

      At the DNSC depot in Hammond, we identified a shortage of 8,029 pieces of
      lead. The most recent Quality Assurance report, issued on March 27, 1997,
      showed a smaller but still significant shortage of 2,611.5 pieces. In February
      1998, at our request, DNSC thoroughly reviewed the lead stored at the DNSC
      depot in Hammond and found the following.

             l   An inventory taken on June 21, 1977, found a shortage of 7,850
                 pieces of lead.

             l   Since June 2, 1978, Quality Assurance reports showed approximately
                 the same shortage as that found on March 27, 1997 (2,611.5 pieces).

             l   DNSC made two independent counts in February 1998; according to
                 both counts, the shortage was 6,815 pieces.



                                         26
                                                Flndin~ D. Value of Inventory


DNSC concluded that a shortage of 6,815 pieces was accurate and that
inventory records should be adjusted. Although the variations among the counts
were unexplained, the two independent counts taken in February 1998 were
probably the most correct because they were independent and received extra
attention from auditors and senior DNSC management. DNSC should make the
adjustment for the shortage of 6,815 pieces. Using the average value of $14.65
for a piece of lead at the DNSC depot at Hammond, the adjustment would
be $99,840.

At the DNSC depot at New Haven, Indiana, we found a shortage of 1,562
pieces of zinc, almost exactly equal to the shortage of 1,564 pieces shown in the
most recent Quality Assurance report issued on April 4, 1997. Depot personnel
stated that two pieces were found during the summer of 1997, explaining the
difference in the results. In a memorandum issued on February 4, 1998, depot
personnel reported that the shortage of 1,564 pieces was shown in a quality
assurance report in February 10, 1995. The memorandum accounted for
10 missing pieces but stated that 1,552 pieces were missing. Depot personnel
believe that these pieces may be found. However, the records should be
adjusted until the pieces are found; at that time, the adjustment can be reversed.
The value of the adjustment would be $11,485.

DNSC should set an amount above which shortages are investigated and
adjusted, in addition to the existing percentage threshold. Quantities of DNSC
materials are large enough that small percentages can be significant.

Depot Records and the MIF. In addition to the MIF, the DNSC depots keep
manual records of quantities on hand. Because the amounts reported in the
fmial     statements are based on the MIF, errors should be detected and
corrected, and reconciliation with depot records is a method of doing this. In
our audit of the FY 1995 Fund Financial Statements, we noted that
discrepancies often existed between the depot records and the MIF. These
discrepancies were separate from any physical discrepancies described in this
finding, and represented errors in posting to the MIF or to the depot records.
In August and September 1996, DNSC made an effort to reconcile the MIF to
depot records and resolved all differences within 2 percent of the quantity on
hand. DNSC also originally planned to reconcile all differences over $5,000,
but did not complete that effort. However, DNSC has continued to reconcile
some of the larger remaining differences.

MIF Errors Identified in F’Y 1997 Audit Sample. Three sample items had
significant discrepancies between depot records and the MIF. Two of the
discrepancies support the original DNSC plan to reconcile differences above a
fmed dollar amount as well as above the 2-percent quantity threshold. Both
were bulk items stored at the DNSC depot in Point Pleasant, West Virginia, and
the same discrepancies were found when DNSC reconciled the MIF to depot
records in FY 19%. However, DNSC did not investigate these discrepancies             -
because they were within 2 percent of the total quantity. The specific
commodities were high-carbon ferro-manganese (depot records showed 30,000
pounds more than the MIF) and high-carbon ferro-chromium (the MIF showed
390,880 pounds more than depot records). If the MIF is incorrect, the


                                   27
Finding D. Value of Inventory


      30,OOOpound difference would have caused an understatement of $8,720 in the
      FY 1997 Fund Financial Statements. DNSC personnel have not determined the
      cause of this difference. The 390,880-pound discrepancy, valued at $104,541,
      is more significant; DNSC plans to research it immediately. DNSC personnel
      believe that the MIF is overstated, which would cause an overstatement on the
      FY 1997 Fund Financial Statements.

      The last of the three items, cadmium stored at the DNSC depot at Somerville,
      New Jersey, demonstrates the need to continue performing the reconciliations.
      The cadmium was stored in boxes that could be counted, and our physical count
      agreed with the depot records. Additionally, the 1996 reconciliation by DNSC
      showed that the difference between the MIF and the depot records was
      3.2 pounds. However, as of May 31, 1997, the MIF showed 29,428.46 pounds
      more than the depot records. This difference occurred because of an error in
      the MIF posting of a September 19% shipment. The error was corrected in
      October 1997. Because DNSC reduces inventory and recognizes Cost of Goods
      Sold at the time of awarding a contract, there is no additional effect on
      accounting records at the time goods are shipped. Therefore, the September
      1996 error was not reflected on the FY 1996 or 1997 Fund Financial
      Statements. However, when DNSC changes its method of recognizing revenue
      as noted in Finding F, such errors, if not corrected in a timely manner, will
      affect the financial statements.

      MIF Adjustment     Made After September 30,1997.      In January 1998, DNSC
      wrote off $47,784.93 in diamond stones stored at Citibank in New York, New
      York, because they believed the MIF was in error. However, the DNSC
      reconciliation in 1996 found no difference between the MIF and the depot
      records for this commodity. The $47,784.93 was an additional overstatement of
      Stockpile Materials in the FY 1997 Fund Financial Statements.


Conclusion
      DNSC should continue its commendable efforts to reconcile the MIF and depot
      records. However, the unrecorded declines in value and unrecorded shortages
      caused overstatements of Stockpile Materials and the Net Position on the
      FY 1997 Fund Financial Statements. On the FY 1997 Fund Financial
      Statements, at least $90.0 million (2.7 percent of the $3.32 billion in Stockpile
      Materials) was attributable to unrecorded declines in value and unrecorded
      shortages. Additionally, the lack of attention to these shortages delayed
      investigation and decreased the likelihood that commodities or funds would be
      recovered.




                                          28
                                                    Finding D. Value of Inventorv




Recommendations, Management Comments, and Audit
Response

    IL&V; recommend that the Administrator, Defense National Stockpile
           ..


           1. IdentiQ commodities that have decreased in value below the
    recorded acquisition cost and reduce the Stockpile Materials line item
    account by the amount of the decrease.

    Management Comments. DLA concurred, stating that Statement of Federal
    Financial Accounting Standards No. 3 requires materials to be valued at
    historical cost except when the material has permanently declined in value. The
    decline is to be recognized as a loss in the period in which it occurs. DLA
    stated that DNSC had identified all commodities with permanent declines in
    value and will reduce the Stockpile Materials line item account. Also, DLA
    stated that DNSC would continue to adjust the Stockpile Materials line item
    account for any material that has a permanent decline in value in the future.
    The estimated completion date is September 30, 1998.

           2. Begin writing off all commodities known to be pending write-off,
    and require that such commodities be written off promptly in the future.

    Management Comments. DLA concurred, stating that DNSC already has an
    established procedure for inventory adjustments. When all pertinent information
    has been obtained, the depot manager prepares a request for an inventory
    adjustment forwards it to Headquarters, DNSC, for approval. After review and
    concurrence by DNSC counsel, the adjustment is approved by the Director,
    Directorate of Strategic Materials Management, or the Administrator, DNSC.
    To improve compliance with this procedure, DLA stated that DNSC will
    produce a quarterly listing of commodities pending write-off as a reminder to
    personnel who need to take action. Management considers the action complete.

            3. Revise procedures to require the investigation and write-off of
    identified shortages, including both physical shortages and discrepancies in
    the Master Inventory File, that are over a fued dollar value or a fmed
    percentage of quantity.

    Management Comments. DLA nonconcurred, stating that DNSC uses
    computed counts for many commodities for which actual counts are too difficult
    to be cost-effective. Because the computed counts are estimates, DNSC does
    not adjust for discrepancies until the entire amount of the commodity is shipped
    and an exact overage or shortage can be determined. DLA further stated that
    acquisition values either overstate or understate the current value of material,
    but market values fluctuate constantly. A ftxed percentage of quantity is the
    only measurement that is not affected by the variables of acquisition value or
    market value.


                                       29
Fiuding D. Value of Inventory


      Audit Response. We consider the management comments partially responsive.
      We are aware that computed counts are the only practical method of counting
      many DNSC commodities, and that the computed counts are not exact.
      However, in the examples from our physical inventory, the shortages were in
      thousands of pieces; and based on our own observation, the items were not in
      condition that carefully computed counts could have been off by large
      quantities. Further, the two commodities have consistently shown shortages
      over a period of years. Specifically, the stockpile of lead at the Hammond
      Depot has shown a shortage for over 20 years. Under such circumstances, it is
      reasonable to conclude that a shortage exists, and SFFAS No. 3 requires an
      adjustment of the inventory records.

      Because the computed counts are not exact, we agree that it is not worthwhile to
      adjust the inventory records for insignificant shortages. However, it is
      necessary to determine whether the dollar value of identified shortages are
      significant. For compliance with SFFAS No. 3, the relevant dollar value is the
      financial statement value, which, as established in this finding, should be the
      lower of the acquisition cost or the market value. The dollar value on the
      financial statements must be a factor in determining whether to adjust for
      identified physical shortages. Therefore, we request that DLA provide
      additional comments in response to the final report.

      4. Direct that depot records be reconciled at least auuually with the Master
      Inventory File.

      Management Comments. DLA concurred, stating that DNSC had approved a
      new procedure requiring the annual reconciliation of depot records with the
      MIF. DLA enclosed a copy of the procedure with its response to the draft audit
      report. The action is considered complete.




                                         30
            Finding E. Retention of Funds
            DNSC inappropriately retained approximately $5 1.16 million that should
            have been transferred to the General Fund of the U.S. Treasury. Public
            Law 104-201, “National Defense Authorization Act for Fiscal Year
            1997, n September 23, 1996, section 3303, requires the sale of
            11 designated Stockpile commodities over a lo-year period, with the
            proceeds deposited to the General Fund of the U.S. Treasury. The law
            states that receipts should be $81 million in the first year (FY 1997) and
            should total $612 million for the entire 10 years. DNSC collected about
            $132.16 million from sales of these commodities in FY 1997, but
            transferred only $81 million to the U.S. Treasury. DNSC only
            transferred $81 million because the Revolving Fund Directorate, Under
            Secretary of Defense (Comptroller), interpreted the law to mean that the
            General Fund of the U.S. Treasury should receive $81 million during
            FY 1997. As a result, $5 1.16 million that remained in the Fund should
            have been transferred to the General Fund of the U.S. Treasury.
            Because DNSC followed the guidance established by the Under
            Secretary of Defense (Comptroller), Fund Balance With Treasury line
            item and the Other Federal (Intragovernmental) Liabilities line item were
            overstated by $5 1.16 million on the FY 1997 Fund Financial Statements.
            After the audit field work, DNSC deposited into the General Fund of the
            U.S. Treasury all funds received from dispositions under Public Law
            104-201, section 3303.


Requirements of Public Law
     Public Law 104-201 states that the proceeds from the sale of 11 excess Stockpile
     commodities should be set aside to offset certain costs of foreign military sales
     for which the U.S. Government waives recovery. The law states that proceeds
     from these sales should total $612 million over a lo-year period, and
     $81 million during FY 1997. The law also states that proceeds from these sales
     should be deposited to the General Fund of the U.S. Treasury.


Transfer of Proceeds
     During FY 1997, DNSC sold quantities of 9 of the 11 excess commodities
     valued at about $184.94 million, and collected about $132.16 million. DNSC
     deposited all proceeds into the Fund. Late in FY 1997, DNSC transferred
     $81 million to the General Fund of the U.S. Treasury, but retained the other
     $51.16 million in its Fund Balance with Treasury account. In the FY 1997
     Fund Financial Statements, this amount in Fund Balance With Treasury was




                                        31
Finding E. Retention of Funds


      offset by a liability for Other Federal (Intragovernmental) Liabilities, correctly
      reflecting the fact that DNSC must relinquish these funds. Therefore, the Net
      Position of the Fund was not overstated.

      DNSC personnel stated that the Revolving Fund Directorate, Under Secretary of
      Defense (Comptroller), made the decision to transfer $81 million. The
      responsible official in the Revolving Fund Directorate stated that he had
      interpreted the law to mean that the General Fund of the U.S. Treasury should
      expect to receive $81 million during FY 1997, and that the National Defense
      Stockpile Transaction Fund should retain the additional proceeds for future
      requirements. However, Public Law 104-201 states that proceeds should go to
      the General Fund of the U.S. Treasury, although the general provision in a
      different law states that the Fund is allowed to retain its own funds. Therefore,
      DNSC did not have the authority to retain proceeds from these sales. We agree
      that depositing funds can be initially deposited in the National Defense Stockpile
      Transaction Fund if the transfer to the General Fund of the U.S. Treasury is
      made promptly. DNSC deposited into the General Fund of the U.S. Treasury
      all funds received from dispositions under Public Law 104-201 section 3303.


Recommendations for Corrective Action
      E. We recommend      that the Under Secretary of Defense (Comptroller):

             1. Transfer all additional proceeds to date from sales of the
      eleven commodities to the General Fund of the U.S. Treasury.

            2. Promptly transfer all future proceeds from sales of the designated
      commodities to the General Fund of the U.S. Treasury.



Management Comments Required
      The Under Secretary of Defense (Comptroller) did not comment on a draft of
      this report. We request that the Under Secretary of Defense (Comptroller)
      provide comments on the final report.




                                          32
           Finding F. Financial Statement
           Compliance With Regulations
           The FY 1997 National Defense Stockpile Transaction Fund Financial
           Statements did not fully comply with the DOD Financial Management
           Regulation, volume 6, chapter 6, “Form and Content of Audited
           Financial Statements,” January 1998, and other criteria. Specifically,
           the statements did not disclose pension costs and environmental cleanup
           liabilities; misclassified silver inventory on consignment to the U.S.
           Mint; and did not properly add the FY 1997 operating results to
           Cumulative Results of Operations. The noncompliance problems
           occurred because the preparers did not know where to obtain information
           and how to correctly present these amounts. As a result, the FY 1997
           Fund Financial Statements contained nonmaterial misstatements;
           therefore, the financial statements did not completely disclose the
           financial position of the Fund.


Pension Costs
    IG, DOD, Report No. 97-176 noted that the FY 1996 statements did not reflect
    pension costs, as required by the DOD Financial Management Regulation.
    SFFAS No. 5, “Accounting for Liabilities of the Federal Government,”
    December 20, 1995, effective in FY 1997, requires Federal employers to
    recognize pension expense at the actuarial present value of benefits attributed by
    the pension plan’s benefit formula to services rendered by employees during the
    accounting period. The FY 1997 Fund Financial Statements did not disclose
    pension costs. DNSC personnel told us that they did not know where to obtain
    the actuarial information they needed to determine these costs.


Environmental Cleanup
    SFFAS No. 5 requires recognition of a contingent liability for any estimable
    probable outlay resulting from a past event. If the outlays are probable but not
    reasonably estimable, the existence of the liability is to be disclosed in the
    footnotes to the fmial    statements. For DNSC, the past event is the delivery
    of hazardous material to the DNSC depots, and future outlays are for cleanup
    requirements.

    DNSC has several hazardous materials that cannot be sold, including mercury,
    asbestos, and thorium nitrate; others, such as lead, require cleanup after the
    entire quantity has been sold. Since September 30, 1997, DNSC has spent
    approximately $370,000 to dispose of asbestos. In the notes to the FY 1997
    Fund Financial Statements, DNSC did not accrue a contingent liability or
    disclose such a liability. DNSC management believes that this situation does


                                        33
Finding F. FTinancialStatement Compliance With Regulations


      not meet the criteria for a contingent liability because at present, the material is
      properly contained and does not pose an environmental hazard. DNSC also
      includes funds for current cleanup in its annual budget; therefore, management
      does not believe that an ongoing liability will exist in the future. Beginning in
      FY 1999, DNSC plans to include an additional $13.8 million in its budget, in
      addition to the $14.7 million to be spent on cleanup during FY 1999 (a total of
      $28.5 million), to pay for any re maining cleanup needed after all DNSC
      disposal sales are completed.

      Although it is commendable that DNSC budgets in advance for environmental
      cleanup, the intent of SFFAS No. 5 is to disclose all known, required future
      outlays. Therefore, for financial statement purposes, DNSC should include an
      estimate of the total future outlays for environmental cleanup as a contingent
      liability. This estimate should include at least the $28.5 million in the FY 1999
      budget request, plus estimates for expenditures in all applicable future years.


Silver on Consignment to the U.S. Mint

      As discussed in Finding C, the U.S. Mint has transferred a large quantity of
      silver to DNSC, and periodically takes some of the silver back on consignment
      for manufacturing commemorative coins. DNSC has classified the amount on
      consignment as Advances and Prepayments in the financial statements.
      According to the DOD Financial Management Regulation, volume 6, chapter 6,
      amounts classified as Advances and Prepayments are cash outlays to cover
      periodic expenses before they are incurred. The value of the silver consigned to
      the U.S. Mint is not a cash outlay and does not cover periodic expenses. To
      account for the silver on consignment, DNSC should designate a subaccount of
      Stockpile Materials or account for the silver under Other Assets. In future
      facial    statements, DNSC should include this amount with Stockpile Materials
      or include it in Other Federal (Intragovernmental) Assets.


Cumulative Results of Operations
     On the FY 1997 Fund Financial Statements, the Cumulative Results of
     Operations should have shown a $101.96 million increase over the FY 1996
     amount for Excess (Shortages) of Revenues and Financing Sources Over Total
     Expenses. Instead, the Cumulative Results of Operations decreased from the
     FY 1996 amount, based on an earlier version of the statements that showed a
     negative balance for Excess (Shortage) of Revenues and Financing Sources Over
     Total Expenses. The failure to make the applicable changes resulted from a
     lack of understanding of the requirement. As a result, Cumulative Results of
     Operations was understated, and Invested Capital was overstated. Beginning in
     FY 1998, according to the Treasury Financial Manual Transmittal Letter
     No. S2 97-01, volume No. I, May 16, 1997, there will no longer be a
     requirement for Invested Capital and Cumulative Results of Operations to be
     separate categories. Therefore, since all the applicable transactions will



                                          34
                  Finding F. Tmancial Statement Compliance With Regulations


    be placed directly into the Cumulative Results of Operations and will not require
    an vear-end adjustment with Invested Capital, we are not making a
    r&mmendatiGn on this issue.



Recommendations, Management Comments, and Audit
Response

    F. We recommend that the Admkistrator, Defense National Stockpile
    Center:

           1. Determine the amount of pension expense required and record it in
    the accounting records in accordance with Statement of Federal Financial
    Accounting Standards No. 5, “Accounting for Liabilities of the Federal
    Government,” December 20,1995.

    Management Comments. DLA concurred, stating that DNSC will take
    aggressive action to determine the amount of pension expense required and
    record it in the accounting records. The estimated completion date is
    August 30, 1998.

           2. Determine the total estimated amount for environmental cleanup
    and record it as a contingent liability in the accounting records.

    Management Comments. DLA concurred with the intent of the
    recommendation, but stated that DNSC does not agree that the amount for
    environmental cleanup is a contingent liability. See the text of the DLA
    comments in Part III of this report, including the comments on Finding F, for
    the reasons DNSC does not consider environmental cleanup a contingent
    liability. DNSC agrees that there will be future operating costs and plans to use
    the Treasury General Ledger Account, Accrued Cleanup Costs, to record
    estimated future outlays.

    Audit Response. The management comments were partially responsive. We
    support the DNSC plan to report the estimated future outlays for environmental
    cleanup as a liability. However, as pointed out in the DLA comments, the
    Treasury Financial Manual defines the account for Accrued Cleanup Costs as
    the “removing, containing, and/or disposing of hazardous materials associated
    with the current portion of general and stewardship property, plant, and
    equipment operations. n The costs to dispose of and clean up after stockpile
    materials are not associated with general or stewardship property, plant, and
    equipment operations. Furthermore, OMB Bulletin No. 97-01 identifies
    accrued environmental cleanup costs as contingent liabilities. Although SFFAS
    No. 5 cites, as an example of a contingent liability, a case in which a Federal
    agency has breached a contract and is subject to a legal claim, the definition of a
    contingent liability does not mention legal claims or state that the agency with a
    contingent liability performed incorrectly. Because the DNSC estimated cost of
    future environmental cleanup does not meet the definition of Accrued Cleanup



                                        35
Finding F. Financial Statement Compliance      With Regulations


      Costs, we continue to believe that cleanup should be as a contingent liability on
      future facial    statements, in accordance with OMB Bulletin No. 97-01. We
      request an additional response from the DLA on this recommendation.

             3. Reclassify the account for silver on consignment from Advances
      and Prepayments to a subaccount of Stockpile Materials or to Other Assets,
      and report it in Stockpile Materials or Other Federal (Intragovernmental)
      Assets on future statements.

      Management      Comments. DLA concurred and stated that the DNSC will
      instruct the DFAS Columbus Center to change the account used for silver on
      consignment from Advance to Government Agencies to Other Assets. DNSC
      will also report silver on consignments as Other Assets on future financial
      statements. The estimated completion date is July 1, 1998.




                                         36
Part II - Additional Information
Appendix A. Audit Process

Scope

    Statements Reviewed. We audited the FY 1997 National Defense Stockpile
    Transaction Fund Financial Statements. The financial statements included the
    Statement of Financial Position, the Statement of Operations and Changes in
    Net Position, and the Statement of Cash Flows. Also included were the
    Footnotes and the Overview to the Principal Statements. We based our opinion
    on the financial statements dated September 30, 1997; we received the
    statements on February 10, 1998.

    Auditing Standards. We conducted this financial statement audit in
    accordance with generally accepted auditing standards issued by the Comptroller
    General of the United States, as implemented by the Inspector General, DOD,
    and OMB Bulletin No. 93-06, as amended by OMB Bulletin No. 97-01. Those
    standards require that we plan and perform the audit to obtain reasonable
    assurance about whether the financial statements are free of material
    misstatements. We relied on the guidelines suggested by the General
    Accounting Office and our professional judgment in assessing the materiality of
    matters affecting the fair presentation of the financial statements and related
    internal control weaknesses.

    Accounting Principles. Accounting principles and standards for the Federal
    Government are under development. The Federal Accounting Standards
    Advisory Board was established to recommend Federal accounting standards to
    three officials for approval. Those officials are the Director, OMB; the
    Secretary of the Treasury; and the Comptroller General of the United States.
    The Director, OMB, and the Comptroller General issue standards agreed on by
    the three officials.

    To date, seven Accounting Standards and two Accounting Concepts have been
    published in f& form. Accounting Standard No. 8 has been approved by the
    Federal Accounting Standards Advisory Board, but it must be reviewed by
    Congress before it is issued. In addition, the Federal Accounting Standards
    Advisory Board issued an exposure draft, “Amendments to Accounting for
    Property, Plant, and Equipment,” February 13, 1998, proposing amendments to
    Accounting Standards No. 6 and No. 8. These standards and concepts
    constitute generally accepted accounting principles for the Federal Government.
    OMB Bulletin No. 94-01, as amended by OMB Bulletin No. 97-01,
    incorporates these standards and concepts and should be used by Federal
    agencies to prepare financial statements. The table on the next page lists the
    “Statements of Federal Financial Accounting Standards and Concepts.”




                                      39
Appendix     A. Audit Process


                 Statements of Federal Financial Accounting Standards and Concepts             1
            Accounting
             Standards                                                          Fiscal Year
           and col.lmts                      Title                    Wus        Effective

       Standard No. 1        Accountingfor Selected Assets and        FiIUl        1994
                              Liabilities, March 30, 1993

       Standard No. 2        Accounting for Direct Loans and          Final        1994
                              Lo+n Guarantees, August 23, 1993

       Standard No. 3        Accounting for Inventory and Related     Final        1994
                              Property, October 27,1993

       StandardNo.4          Managerial Cost Acmmting Concepts        Final        1998
                              andSmdards,July31,1995

       StandardNo.5          Acxounting for Liabilities of the        Final        1997
                              Federal Government, December 20,
                              1995

       StandardNo. 6         Accounting for Property, Plant and       Final’       1998
                              Equipment, November 30.1995

       StandardNo. 7         Accounting for Revenue and Other         Fhl          1998
                              Financii Sources, May 10, 19%

       Star&mlNo. 8          Supplementary stewardship Reporting,   Approved’
                              June 11, 1996

       Concept No. 1         Objectives of Federal Finmcii            Final
                              Reporting, September 2,1993

       Concept No. 2         Entity and Display, June 6, 1995         Final

       lIeFinancialAccountingS~AdvisoryBoardhasissuedanexposuredraft,
       ‘Amendments to Accounting For Property, Plant, and Equipment,” February 13, 1998. The
       xposuredraftcontainsproposedamendmentsto       Sta&rdsNo.      6andNo. 8.

      Through FY 1997, agencies were required to follow the hierarchy of accounting
      principles outlined in OMB Bulletin No. 94-01, as amended by OMB Bulletin
      No. 97-01. A summary of the FY 1997 hierarchy follows:

                     standards agreed to and published by the Director, OMB; the
                     Secretary of the Treasury; and the Comptroller General of the United
                     states;

                     requirements for the form and content of financial statements in OMB
                     Bulletin No. 94-01, as amended by OMB Bulletin No. 97-01;




                                                40
                                                        ADDeI&X    A. Audit Process

             l   accounting standards in agency accounting policy, procedures, or
                 other guidance as of March 29, 1991; and

             l   accounting principles published by other authoritative sources.

     Overview and Performance Measurements. We also reviewed the financial
     information in the Overview to the FY 1997 Fund Financial Statements. We
     did not find any instances in which the Overview was materially inconsistent
     with the Principal Statements. We have not audited the information in the
     Overview; therefore, we are not rendering an opinion. We did not review the
     data on performance measurements.

     Review of Internal Controls. Our consideration of the internal controls
     included obtaining an understanding of significant policies and procedures and
     assessing the level of control risk relevant to all significant cycles, classes of
     transactions, or account balances. For those significant control policies and
     procedures that had been properly designed and placed in operation, we
     performed sufficient tests to provide reasonable assurance that the controls were
     effective and working as designed. For areas where internal controls were
     determined to be weak, we attempted to perform tests to determine the level of
     assurance that could be placed on those controls.

    Our consideration of the internal controls would not necessarily disclose all
    matters that might be reportable conditions, and would not necessarily disclose
    all reportable conditions that are also considered to be material weaknesses.

    Review of Compliance With Laws and Regulations. As part of obtaining
    reasonable assurance about whether the FY 1997 Fund Financial Statements
    were free of material misstatements, we reviewed compliance with laws and
    regulations that may directly affect the financial statements and other laws and
    regulations designated by OMB and DOD. See Appendix E for a list of the laws
    and regulations we reviewed.


Methodology

    Computer-Processed Data. To achieve the overall audit objective, we initially
    relied on computer-processed data obtained from the DNSC Master Inventory
    File (MB). We assessed the reliability of the MIF data by reviewing the
    general controls at DNSC, comparing the MIF records to storage depot records,
    and testing inventories of the DNSC materials. To perform the inventory of
    DNSC materials, we used both statistical and judgmental samples. At inventory
    locations, we made comparisons between our physical inventory results, MIF
    information, and the storage depot records for the statistical sample items. At
    those locations, we also observed judgmental samples of other items and
    verified the existence of these items on the MIF. The MIF data that we audited
    were generally reliable.

    Statistical SampJing Methods. The Quantitative Methods Division, Office of
    the Inspector General for auditing, DOD, developed the statistical sampling plan


                                         41
Appendix A. Audit Process


      for this audit. That work included statistically selecting the locations and the
      inventory line items at each location. In addition, the Army Corps of Engineers
      (the Corps) provided assistance with measuring sample selections of materials in
      bulk storage, as these materials were not readily countable. We have not
      evaluated the results of the sample because the results of the bulk commodities
      measurements from the Corps were delayed. However, for the 42 countable
      items we physically inventoried, significant discrepancies existed for 2 items.
      We found significant differences between the MIF and depot records for an
      additional three sample items, two of which were bulk commodities measured
      by the Corps. Finding D describes the discrepancies found.

      Audit Period and Locations. We conducted this audit from October 1997
      through April 1998 at the DNSC and its storage locations and at the DFAS
      Columbus Center.

      Representation Letters. We received a management representation letter from
      the Director, DLA, and a legal representation letter from the General Counsel,
      DLA. Both letters stated that officials had no knowledge of any matters that
      would have a material effect on the FY 1997 National Defense Stockpile
      Transaction Fund Financial S_tatements. See Appendix D of the final report for
      the representation letters.

      Contacts During the Audit. We visited or contacted individuals and
      organizations within DoD. Further details are available on request.


Management Control Program
      DOD Directive 5010.38 and DOD Instruction 5010.40 require DOD
      organizations to implement a comprehensive system of internal controls that
      provides reasonable assurance that programs are operating as intended and to
      evaluate the adequacy of controls.

      Scope of Review of the Management Control Program. We reviewed the
      adequacy of the DNSC internal controls as they relate to the FY 1997 Fund
      Financial Statements. Specifically, we reviewed DNSC internal controls over
      the recording, accounting, and reporting of financial information resulting from
      DNSC operations during FY 1997.

      Adequacy of Management Controls. The Fund internal controls were
      generally adequate. However, a material internal control weakness was
      identified in the reporting of accounts receivable (Finding B). The official
      responsible for DLA management controls will receive a copy of the report.

      Adequacy of Management’s Self-Evaluation. The DFAS Annual Statement
      of Assurance for FY 1997 identified weaknesses in the Standard Army Financial
      System (STANFINS) Redesign Subsystem One, which DFAS uses to process
      DNSC cash receipts and disbursements. The FY 1997 Annual Statements of
      Assurance of DLA, DNSC, and the DFAS Columbus Center did not identify
      any material weaknesses in controls over DNSC operations.



                                         42
Appendix B.           Prior Audit Reports
   During the last 5 years, several reports were issued that relate to the Fund
   financial statements and DNSC accounting policies and practices.

   General Accounting Office Letter Report No. NSIAD-97-30 (OSD Case
   No. 1200), “Disposal of Excess Zinc,” November 7, 1996. This audit was
   performed in response to a Congressional request resulting from a dispute
   between the American Zinc Association and the Federal Government. The
   dispute concerned the Government’s basis for its interpretation of the statutory
   phrase “usual markets” as applied to the zinc sales program, and DOD efforts to
   minimize disruption of the zinc market. The General Accounting Office found
   that the statute did not define “usual markets” and agreed with the DNSC
   interpretation that the phrase refers to the total U.S. market for all grades of
   zinc, not only the grades sold by DNSC. The report also stated that DNSC had
   procedures for selling zinc without unduly disrupting the zinc market. The
   report contained no recommendations.

   General Accounting Office Report No. AIMD-9535R (OSD Case
   No. 9842), %tockpile Fux+,” December 16, 1994. The auditors reviewed
   accounting policies and practrces for cash and noncash transactions. The report
   stated that cash and noncash transactions were not separately identified in the
   FY 1993 Fund Financial Statements and the annual Strategic and Critical
   Materials Report to the Congress for FY 1993. Also, the FY 1993 Fund
   Financial Statements did not separately disclose all amounts included in the Net
   Position of the Fund, as prescribed by OMB. Additionally, the report stated
   that DNSC was not in compliance with Public Law 100440, “Treasury, Postal
   Service, and General Government Appropriations Act, 1989,” September 22,
   1988, section 518, because the Fund used part of the estimated $215.8 million
   appropriated to the Fund before January 1, 1985, on contracts involving in-kind
   exchanges that did not meet the requirements of Public Law 100440. The
   Fund was required to use, before January 1, 1998, all funds authorized and
   appropriated to evaluate, test, relocate, upgrade, or purchase stockpile
   materials. The report contains no recommendations.

   Inspector General, DOD, Report No. 97-176, “Internal Controls and
   Compliance With Laws and Regulations for the National Defense Stockpile
   Transaction Fund F’inancial Statements for F’Y 1996,” June 25,1997. We
   rendered a qualified opinion on the financial statements for FY 1996 because we
   were unable to compare the FY 1996 financial statement balances to the
   FY 1995 balances. The audit did not disclose any material internal control
   weaknesses. Management control problems continued to exist in collecting
   delinquent accounts receivable and related interest charges, and the recording
   and reporting of interest revenue due to the U.S. Treasury. Management
   generally complied with laws and regulations related to the accuracy of financial
   statements. However, DNSC did not comply with guidance for U.S. Treasury
   interest receivable; allowances for uncollectible accounts; and accounting for
   fixed assets, accrued annual leave, and pension expense. DLA management



                                       43
Appendix B. Prior Audit Reports


      concurred with all recommendations, stating that interest receivable would be
      included in the FY 1997 Fund Financial Statements. DFAS provided comments
      after the final report was issued, concurring with all recommendations and
      describing corrective actions that would be implemented. As of March 1998,
      DNSC and the DFAS Columbus Center had made minimal progress in
      implementing adequate collection procedures. The recording of interest charges
      was corrected, and interest receivable was reported in the FY 1997 Fund
      Financial Statements. Except for the reporting of pension expenses, the
      reportable conditions in compliance with laws and regulations were corrected.

      Inspector General, DOD, Report No. 96-190, “Internal Controls and
      Compliance With Laws and Regulations for the National Defense Stockpile
      Transaction F’und Financial Statements for FY 1995,” June 28,1996. We
      disclaimed an opinion on the financial statements because documentation was
      not available to support the value of inventory. The auditors did not find any
      material internal control weaknesses or lack of compliance with laws and
      regulations. However, the audit disclosed reportable internal control conditions
      in the accuracy of the Stockpile Materials inventory balance on the financial
      statements; in the collection of accounts receivable and related interest
      receivable; and in the recording and reporting of interest due to the U.S.
      Treasury. The audit also disclosed a reportable condition in the failure to
      comply with guidance for the form and content of financial statements.
      Management concurred with all recommendations, but had taken effective
      action only for the inventory balance of Stockpile Materials on the financial
      statements. Therefore, all other conditions were cited in the report on the audit
      of the FY 1996 Fund Financial Statements.

      Inspector General, DOD, Report No. 93-139, “National Defense Stockpile
      Transaction Fund F’inancial Statements for FY 1992,” June 30,1993. We
      disclaimed an opinion on the financial statements because DL.A could not
      provide documentation to support the value of inventory on the financial
      statements, and management did not provide the necessary management and
      legal representation letters. The audit did not disclose any reportable or
      material internal control weaknesses. The report stated that DNSC complied in
      all material respects with policies, laws, and reguiations. The report did not
      contain any recommendations. Management concurred with all facts presented
      in the report.




                                          44
Appendix C. Principal Statements, Footnotes to
Principal Statements, and Audit Opinion
This appendix (a total of 32 pages) contains excerpts from the National Defense
Stockpile Transaction Fund Chief Financial Officer Annual Financial Statement for
FY 1997, dated March 1, 1998. Included are the Principal Statements, Footnotes to
the Principal Statements, and the Audit Opinion. A complete set of the Chief Financial
Officer Annual Financial Statement is available at the following Internet address:
http://www.dtic.mil/comptroller/97afs/.




                                         45
                 Principal Statements




  DEFENSE NATIONAL
STOCKlpILE TRANSACTION
         FUND


PMNCIPAL   STATEMENTS
Principal Statements




                       26
                                                                        Principal Statements

Defense National Stockpile Transaction      Fund
Statement of Financial Position
As of September 30,1997
(Thous an&)

ASSETS

1. EntityAssets:
   a. Transactions   with Federal (Intragovernmental)   Entities:
      (1) Fund Balance with Treasury (Note 2)                        $519,768        $290,712
      (2) Investments, Net (Note 4)                                         0                   0
      (3) Accounts Receivable, Net (Note 5)                                 35              35
      (4) Interest Receivable                                                0               0
      (5) Advances and Prepayments                                       1,184            (749)
      (6) Other Federal (Intragovernmental)    (Note 6)                      0               0
   b. Transactions with Non-Federal (Governmental) Entities:
      (1) Investments (Note 4)                                              0                   0
      (2) Accounts Receivable, Net (Note 5)                           278,539         285,021
      (3) Credit Program Receivables/ Related
           Foreclosed Property, Net (Note 7)                                 0               0
      (4) Interest Receivable, Net                                           0               0
      (5) Advances and Prepayments                                           0               0
      (6) Other Non-Federal (Oovermnental) (Note 6)                          0               0
  c. Cash and Other Monetary Assets (Note 3)                                 0               0
  d. Inventory, Net (Note 8)                                                 0               0
      Work in Process (Note 9)                                               0               0
      Operating Materials/Supplies,    Net (Note 10)                         0               0
  i3 Stockpile Materials, Net (Note 11)                              3,320,087       3,696,491
  h. Seized Property (Note 12)                                               0                0
   1. Forfeited Property, Net (Note 13)                                      0                0
   j. Goods Held Under Price Support and
      Stabilization Programs, Net (Note 14)                                 0                0
  k. Property, Plant and Equipment, Net (Note 15)                         258                0
   1. War Reserves                                                          0                0
  m. Other Entity Assets                                                    0                0
  n Total Entity Assets                                             $X,119,871      $x271,510

2. Non-Entity Assets:
   a. Transactions with Federal (Intragovernmental)    Entities:
      (1) Fund Balance with Treasury (Note 2)                              $0               $0
      (2) Accounts Receivable, Net (Note 5)                                 0                0
      (3) Interest Receivable, Net                                          0                0
      (4) Other (Note 6)                                                    0                0




The accompanying notes are an integral part of these statements.




                                                           27
Principal Statements

Department of Defense
Defense National StockMe Transaction        Fund
Statement of Financial Position
As of September 30, 1997
(Thousands)

ASSETS, Continued

2.   Non-Entity Assets:
     b. Transactions with Non-Federal (Govcmmental)Entitics:
        (1) Accounts Receivable, Net (Note 5)                                  SO          $0
         (2) Interest Receivable, Net                                      2,642            0
        (3) Other (Note 6)                                                     0            0
     c. Cash and Other Monetary Assets (Note 3)                                0            0
     d. Other Non-Entity Assets                                                0            0
     e. Total Non-Entity Assets                                           $2,642           SO

3. Total Assets                                                        S4,122,513   S44271,SlO

LIABlLlTrEs

4. Liabilities Coveredby Budgetary Resources:
   a. Transactions with Federal (Intragovernmental)     Entities:
      (1) Accounts Payable                                               $60,632      rs9>15
      (2) Interest Payable                                                     0               0
      (3) Debt (Note 16)                                                       0               0
      (4) Other Federal (IntragovemmentaI)   Liabilities (Note 17)        51,161               0
   b. Transactions with Non-Federal (Governmental) Entities:
      (1) Accounts Payable                                                $2,759
      (2) Accrued Payroll and Benefits
           (a) Salaries and Wages                                             53
           (b) Annual Accrued Leave                                            0
           (c) Severance Pay and Separation Allowance                          0
      (3) Interest Payable                                                     0
      (4) Liabilities for Loan Guarantees (Note 7)                             0
      (5) Lease Liabilities (Note 18)                                          0
      (6) Pensions and Other Actuarial Liabilities (Note 19)                   0
      (7) Other Non-Federal (Covemmtntal)
           Liabilities (Note 17)                                           4,800        1,558
   c Total Liabilities Co-red b Budgetary Resources:                    $119,405      569,052




The accompanying     notes are an integral part of these statements.




                                                           28
                                                                                Principal Statements

Department of Defense
Defense National StockPIe Transaction          Fund
Statement of Financial Position
As of September 30,1997
(Thousank)

LIARILlTIES, Continued                                                   1997

5.   Liabilities   Not Cowred   by Budgetary   Resources:
     a. Transactions with Federal (Intragovernmental)     Entities:
         (1) Accounts Payable                                                     $0              SO
         (2) Debt (Note 16)                                                           0             0
         (3) Other Federal (Intragovernmental) Liabilities (Note 17)                  0             0
     b. Transactions with Non-Federal (Covcrnmental) Entities:
         (1) Accounts Payable
         (2) Debt (Note 16)
         (3) Lease Liabilities (Note 18)
         (4) Pensions and Other Actuarial Liabilities (Note 19)
         (5) Other Non-Federal (Covtrnmcntal) Liabilities (Note 17)              4%                 0
     c. Total Liabilities Not Co-red by Budgetary Resources                     8496              SO


6. Total Liabilities                                                       8119,901          869,052

NET POSITION (Note 20)

7. Balances:
   a. Unexpended Appropriations                                              83,980               SO
   b. Invested Capital                                                    3377,691          3,536,106
   c. Cumulative Results of Operations                                      621,437           666,352
   d. Other                                                                       0                 0
   c. Future Funding Requirements                                               (4%)               0
   f. Total Net Position                                                 84,002,612        $X,202,458

8. Totaf Liabilities    and Net Position                                 84,122,513        84271,510




The accompanying       notes are an integral part of these statements.




                                                             29
Principal Statements

Defense National Stockpile Transaction Fund
Statement of Operations and Changes in Net Position
For the Period prided September 30,1997
(Thousands)

RJWBWES AND FINANCJNG SOURCES

 1. Appropriated Capital Used                                                 $0          SO
 2. Revenues from Saks ofGoods and Services
    a. To the Public                                                    499,918      365,982
    b. Intragovernmental                                                 29,432       54,267
 3. Interest and Penalties, Non-Federal                                   2,945             0
 4. Interest, Federal                                                          0            0
 5. Taxes (Note 21)                                                            0            0
 6. Other Revenues and Financing Sources (Note                                 0       1,442
 7. Less: Taxes and Receipts Transferred to
    the Treasury or Other Agencies                                          i301)             0
 8. Total Revrnnes and Financing Sources                               $531,994     $421,691

EXPENSES:

 9. Program or Operating Expenses (Note 23)                             $56,315      $59260
10. Cost ofGoods Sold (Note 24)
     a. To the Public                                                   365,701      14133
     b. Intragovernmental                                                 7,782       14222
11. Depreciation and Amortization                                              0           0
12. Bad Debts and Writeoffs                                                 232          120
13. Interest
    a. Federal Financing Bank/Treasury    Borrowing                            0           0
   b. Federal Securities                                                       0           0
   c. Other                                                                    0           0
14. Other Expenses    (Note 25)                                                0           0
15. Total Expenses                                                     S430,030     $215,245

16. Excess (Shortage) of Revenues and
    Financing Sources Over Total I&pcnses
    Before Extraordinary Items                                         $101,964     $206,446
17. Plus (Minus) Extraordinary Items (Note 26)                                 0           0
18. Excess (Shortage) of Revenues and
    Financing Sources Over Total Expenses                              5101,964     $206,446




The accompanying     notes are an integral part of these statements.




                                                           30
                                                                           Principal Statements

Department of Defense
Defense National Stockple Transaction Fund
Statement of Operations and Changes in Net Position
For the Period b&d    September 30,1997
(Thousands)

EXPENSES, Continued

19. Net Position, Beginning Balance, as Preliously    Stated         54202,458          $4,270,691
20. Adjustments   (Note 27)                                              (i8.510)         (123,781 j
21. Net Position, Beginning Balance, as Restated                     $4,183,948         $4,146,907
22. Excess (Shortage) of Revenues and
    Financing Sources Over Total J&penscs                               101+964            206,446
23. Plus (Minus) Non Operating Changes (Note 28)                       (283.3fQO)         ( 150,895j
24. Net Position, &ding Balance                                      $4,002,612         $4,202,458
                                                                                    -




The accompanying   notes are an integral part of these statements.




                                                         31
Principal Statements

Department of Defense
Defense National Stockfle Transaction Fund
Statement of Cash Flows
For the Period tided September 30,1997
(ThousanaP)

CASH FLOWS FROM OPERATING A-

 l. Exess (Shortage) of Revenues      and Financing
    Sources Over Total Expenses                                        $101,964        $206,446

Adjustments Affecting Cash Flow:
 2. Appropriated Capital Used                                                     0           0
 3. Decrease (Increase) in Accounts Receivable                            3,840         (56,376)
 4. Decrease (Increase) in Other Assets                                 374,471         254,179
 5. Increase (Decrease) in Accounts Payable                              (4,103’)        (9,393 j
 6. Increase (Decrease) in Other Liabilities                             54,456’          1,027
 7. Depreciation and Amortization                                              0              0
 8. Other Unfunded I%pcnses                                             (51,161)              0
 9. Other Adjustments                                                   (19.4 11)      (123,781)
10. Total Adjustments                                                  $358,092         $65,653

11. Net Cash Provided (Used) by Operating Activities                   S460,056        $272,099

CASH FLOWS FROM INVESTING A-S

12.   Sale of Property, Plant and Equipment                                       SO         SO
13.   Purchase of Property, Plant and Equipment                                    0           0
14.   Sale of Securities                                                           0           0
15.   Purchase of Securities                                                       0           0
16.   Collection ofLoans Receivable                                                0           0
17.   Creation ofLoans Receivable                                                  0           0
18.   Other Investing Cash Provided (Used)                                        0            0


19. Net Cash Provided (Used) by Investing     Activities                          SO         SO


CASH FLOWS FROM FINANCING              ACI’IVITIES

20. Appropriations  (Current Warrbnts)                                            SO         SO
21. Add:
    a. Restorations                                                               0            0
    b. Transfers of Cash from Others                                              0            0
22. Deduct:
    a. Withdrawals                                                            0                0
    b. Transfers of Cash to Others                                      231,000         150,000

23. Net Appropriations                                                 ($23 1.?M)      (S 1so,ocq

The accompanying     notes are an integral part of these statements.




                                                           32
                                                                              Principal Statements

Department of Defense
Defense National StockMe Transaction Fund
Statement of Cash Flows
For the Period&&d    September 30,1997
(Thousands)

CASE FLOWS FROM FINANCING AtXIVlTIES,                      Continued

24. Borrowing from the Public                                                   SO                   SO
25. Repayments on Loans to the Public                                            0                    0
26. Borrowing from the Treasury and the Federal Financing Bank                   0                    0
27. Repayments on Loans from the Treasury and the Federal
    Financing Bank                                                               0                    0
28. Other Borrowings and Repayments                                              0                    0


29. Net Cash Provided (Used) by Financing         Activities              $23 1.000~      (%iSO,OOOj

30. Net Cash Provided (Used) by Operating,
    Investing and Financing Activities                                    $229,056         $122,099

31. Fund Balance with Treasury, Cash, and
    Foreign Currency, Beginning                                            290,712              168,613

32. Fund Balance with Treasury, Cash, and
    Foreign Currency, Ending                                              $519,768         $290,712



Supplemental   Disclosure    of Cash Flow Information:                                  l22fi

33. Total Interest Paid                                                         SO                  $0


Supplemental   Schedule     of Financing   andbesting      Actitity:                    w!!i

34. Property and Equipment      Acquired Under
    Capital Lease Obligations                                                   SO                  SO

35. Property Acquired     Under Long-Term Financing
   Arrangemnts                                                                  SO                  SO

36. OtherExchanges      ofNon-cash    Assets orLiabilities                      SO                  SO




The accompanying     notes are an integral    part of these statements.




                                                                33
                      Footnotes




 DEFENSE NATlONAL
     STOCKPILE
 TRANSACTION FUND




     FOOTNOTES
       TO THE
PHNCIPAL STATEMENTS
Footnotes




            36
                                                                                      Footnotes


       DEFENSE NATIONAL STOCKPILE TRANSACTION                                       FUND
                    FINANCIAL OPERATIONS
             NOTES TO THE PRINCIPAL STATEMENTS
                   AS OF SEPTEMBER 30,1996


Note 1.        Simificant Accounting Policies

A.      Basis of Presentation:

        These financial statements have been prepared to report the financial position and results
of operations of the Defense Logistics Agency @LA) National Defense Stockpile Transaction
Fund, (the T-Fund) as required by the Chief Financial Officers (CFO) Act of 1990. They have
been prepared from the accounting records of the T-Fund in accordance with the hierarchy of
accounting standards as prescribed by the Federal Accounting Standards Advisory Board
(FASAB), OMB Bulletin 94-01 and supplemental DOD guidance. The accounting standards
prescribed by the FASAB, in the DOD Accounting Manual (DOD 7220.9-M) and in the Financial
Management Regulation (DOD 7000.14-R) were followed, as appropriate. To the extent that
guidance is not provided by one of these standards, the T-Fund accounts for transactions in
accordance with guidance promulgated by the GAO, OMB, Department of Treasury, and
commercial Generally Accepted Accounting Principles. These statements differ from the
T-Fund financial reports prepared to monitor and control the use of budgetary resources.

B.     Reporting Entity:

        The Defense Logistics Agency @LA) is a combat support agency responsible for
worldwide logistics support throughout the Department of Defense. The primary focus of the
DLA is to support the war fighter, and to provide relief efforts during times of national
emergency. The DLA Defense National Stockpile Center (DNSC) administers the acquisition,
storage, management, and disposal of the Nation’ s strategic and critical inventory of materials
essential to the Militaty and industrial requirements of the United States. The T-Fund is a
revolving fund that accounts for sources necessary to procure and dispose strategic commodities.
The appropriation symbol is 97X4555.5145.

       The CFO Act requires the T-Fund, as a revolving fund, to provide audited financial
statements. Fiscal year 1997 represents the fifth year that the T-Fund has prepared financial
statements as required by the CFO Act.




                                                37
Footnotes

C.      Budgets and Budgetary Accounting:

        The T-Fund receives an apportionment from the Offrce of Management and Budget for
the operation and acquisition programs.

D.      Basis of Accounting:

          Transactions are recorded on a accrual accounting basis and a budgetary basis. Under the
accrual method, revenues are recognized when earned and expenses are recognized when a
liability is incurred, without regard to receipt or payment of cash. Budgetary accounting
facilitates compliance with legal constraints and controls over the use of federal funds. All
known intrafund balances have been eliminated.

E.     Revenues and Other Financing Sources:

        Revenues and financing sources for the T-Fund consist of cash proceeds from the
disposal of excess commodities and related services provided to the customers.

F.     Accounting for Intra-governmental      Activities:

         DLA, as an agency of the Federal government, interacts with, and is dependent upon,
other financial activities of the government as a whole. As a result, these financial statements do
not reflect the results of all financial decisions applicable to DLA as though the agency were a
stand alone entity.

          For example, DLA’s proportionate share of the public debt and related expenses of the
Federal Government are not included in these financial statements because debt and related
interest costs are not apportioned to Federal agencies. Financing for the construction of DoD
facilities is obtained through appropriations from the Congress. To the extent that this fmancing
may have been ultimately obtained through the issuance of public debt, interest costs have not
been capitalized since the Treasury Department does not allocate interest costs to the benefiting
agencies.

       Finally, the T-Fund’s civilian employees participate in the Civil Service Retirement
System (CSRS) and Federal Employees Retirement System (FERS). The following is a list of
personnel benefits for FY 1997:

       Life Insurance                           $23,286
       Health Benefits                          593,149
       CSRS & FERS                            1,021,405
       Social Security                          5 10,727
       Thrift Plan                              187,081
       Benefits for Former Personnel            117,409


                                                38
                                                                                        Footnotes


G.      Funds with the U.S. Treasury and Cash:

        The funds with the U.S. Treasury represent the balances as of 30 September 1997. Cash
receipts and disbursements affect the available balances.

H.      Foreign Currency:

        Not applicable.

L       Accounts Receivable:

        Allowances for uncollectible accounts are established. Sales and disposals are recorded
as receivable at the time the sales agreement is issued and the material is removed from
Inventory. Storage charges are assessed and billed if the purchaser does not pickup the material
within the agreed upon time frame.

        During fiscal year 1997, DNSC recognized a prior period adjustment of approximately
$17 million to correct prior year’ s defaulted and other incorrect revenue posted in accounts
receivable.

J.      Loans Receivable:

       Not applicable.

IL     Inventories:

        The financial inventory balance for the stockpile materials is maintained on a historical cost
basis, which includes acquisition cost plus any fees, such as testing, upgrading, and transportation
expenses. It is reported as Stockpile materials in the Principal Statements.

        When the mission of the Stockpile was transferred to the DOD from GSA in 1988, the
DoDIG audited the physical inventory records and historical values of the inventory were
established. The establishment of historical costs was necessary at that time because the original
records of some of the purchases dated back to the 1950’s and were no longer available. The
market value of the material as of 30 September 1997 is estimated to be $5.4 billion.

L.     Investments    in U.S. Government    Securities:

       Not applicable.




                                                 39
Footnotes


M.      Property and Equipment:

        After further review, the National Stockpile Transaction Fund has determined it has no
equipment which meets the current DOD capitalization threshold, but does have some equipment
which meets previous capitalization thresholds and meets the requirements for these statements.
In Fiscal Year 1998 we anticipate the acquisition of equipment that will meet the criteria and will
be reported accordingly in the FY 98 statements.

N.      Prepaid and Deferred Charges:

       Not applicable.

0.     Leases:

        The T-Fund is committed to operating leases and rental agreements. Generally, these
leases and agreements are for the rental of equipment, space and operating facilities. Payments
under these operating leases are expensed as incurred.

P.     Contingencies:

        The T-Fund may be party to various legal and administrative claims and actions. In
management’s opinion, the resolution of these actions will not materially affect the T-Fund
operations or financial position. Therefore, no contingent liabilities have been recognized in the
Statement of Financial Position.

Q.     Accrued Leave:

        Civilian annual leave is accrued as earned, and accrued hours are reduced as leave is taken.
Sick leave and other types of nonvested leave are expensed as taken.

R      Equity:

        Equity consists of invested capital, appropriated capital-grants and cumulative result of
operations. Invested capital, as presented in the Statement of Financial Position, represents the
value of the DNSC’ s capital assets as reported at historical or actual costs. Increases to invested
capital are recorded when capital assets are acquired. Decreases occur as capital assets are
depreciated or transferred. Appropriated capital represents the remaining balance of grants
authorized by Congress and administered by the DNSC.

       Cumulative results of operations are the excess of revenues over expenses, less refunds to
customers.



                                                 40
                                                                                    Footnote!3


S.        Aircraft/Ship Crashes:

          Not applicable.

‘I’.      Treaties for Use of Foreign Bases:

          Not applicable.

U.        Comparative Data

         The financial statements present fiscal year 1996 and 1997 amounts. For fiscal year
 1996, the financial statements were audited and were found to present fairly, in all material
respects, the financial position of the Fund as of September 30,1996, and did not identi@ any
material weaknesses relating to the Fund’ s activities. A qualified opinion was issued based on
the lack of a complete audit performed on the fiscal year 1995 financial statements.

V.        Restatement of Prior Year Principal Statements

          Not applicable.

W.        Unpaid Obligations and Undelivered Orders

        The T-Fund is obligated for goods and services that have been ordered but not yet
received. Total undelivered orders amounted to %5,979,700.54 as of September 30, 1997.


Note 2.          Fund Balances with Treasurv

A         Business Operations Fund (USD(C)) and All Other Funds and Accounts:

                                                                 Bntity Assets
                                                                   Appro-           Other
                                        Trust        Revolvin       priated         Fund

                                        Funds         Fzds           Funds          Tvpes              Total

Unobligated Balance Available:
   Available                             so          $733,989             $0             $0           $733,989
   Restricted                                          51,797                                           51,797
Reserve For Anticipated Resources       (G                 (0)            WY             co”,               (0)
Obligated (but not expensed)
Unfunded Contract Authority             to”,         (266yo:z             @Y             co”,         (266Po%
Unused Borrowing Authority        00000
   Treasury Balance                      $0          $5 19,768            $0             $0       I   $519,768



                                                41
Footnotes

B.        Business Operations Fund Activities Below USD(C) Level:

          Not applicable.

C.        All Funds and Accounts:

                                                            Entity Assets
                                               Funds Collected         Funds Disbursed

Beginning Balance                                      $290,712                        $0
Transfers of Cash to Others                                                      23 1,000
Transfers of Cash from Others                                   :                       0
Funds Collected                                         5 14,896                        0
Funds Disbursed                                               0                   54,840
     Ending Balance                                    !§805,6&                 $285,840

D.        Other Information:

        The amount reported on the General Ledger Trial Balance for Defense National Stockpile
is over stated by $45,914.60 and is no longer included in the Treasury Balance shown above.
This amount represents transactions by others that have been reported to Treasury but have not
reached the accounting offrce responsible for inclusion in the Trial Balance. Restriction of funds
is the amount of monies collected but not yet transferred to the Treasury under P.L. 104-201.

Note 3.          Cash Foreien Currencv and Other Monetarv Assets

          Not applicable.

Note 4.          Investments,   Net

          Not applicable.




                                                42
                                                                                                    Footnotes

Note 5.           Accounts Receivable, Net

                                                                                             (3)                (4)
                                          AllczIlce                  Al~o%ulce
                                           h.lol.lnt               For Estimated           Method         Amount
                                              Due                  Uncollectibles           Used           Due

A.        Entity Receivables:
          Intragovernmental                         $35
          Governmental                         278,768                        22:                               278,5:;

B.        Non-Entity Receivables:
          Intragovernmental                                 0                     0                                       0
          Governmental                                      0                     0                                       0

c.        Other Information:    Not applicable.


Note 6.          Other Federal CIntraeovernmental)              and Non-Federal       (Governmental)   Assets

          Not applicable.

Note 7.          Loans and Loan Guarantees, Non-Federal               Borrowers

          Not applicable.

Note 8.          Inventor-v. Net

          Not applicable.

Note 9.          Work in Process

          Not applicable.

Note 10.         Oneratine Materials and Sunnlies (OM&Sl, Net

          Not applicable.




                                                       43
Footnotes

Note 11.           StockDile Materials Net

                                              (1)                 (2)                   (3)                 (4)
                                          Stockpile                                  Stockpile
                                          Materials           Allowance              Materials          Valuation
                                          Amount              For Losses                Net              Method

A. Stockpile Material:
         (1) Held for Sale                   $1,404,419                 $0           $1,404,419         Historical
         (2) Hej~;eR;;eme     for
                                              1,915,668                                1,915,668        HiStOliCd
     Total                                   $3,320,087                        _

B.         Restrictions   on Stockpile Materials and Supplies:

        There are several restrictions on the use of the materials. The quantities to be stockpiled
are required to be sufficient to sustain the U. S. for a period of not less than three years during a
national emergency (including a sustained conventional global war of indefinite duration). The
required stockpile levels can only be changed by law through a Presidential proposal in the
Annual Material Plan submitted to Congress.

Except for disposals made under the following situations, disposals cannot be made from the
stockpile

     0     Necessary upgrading, refining or processing
     l     Necessary rotation to prevent deterioration
     0     Determination as excess and of potential financial loss if not disposed
     a     By order of the President and/or authorized by law

C.         Other Information:

        The estimated market value of the total inventory as of September 30,1997, is $5.380
billion. The financial statements report the recorded historical cost in accordance with the lower
of cost or market principal.

Note 12.           Seized Property

           Not applicable.

Note 13.           Forfeited Property, Net

           Not applicable.




                                                    44
                                                                                                 Footnotes

Note 14.       Goods Held Under Price Su~nort and Stabilization               Programs, Net

       Not applicable.

Note 15.       Propertv, Plant, and Equipment

                                                                           (3)                   (4)
                                       (1)
                                     Depreci-
                                      ation
                                                          (2)

                                                        Service       Acquisition         Accumulated
                                                                                                              L2t
                                                                                                             Book
                                     Method              Life           Value             Deoreciation       Value

Classes of Fixed Assets

A. Land                                                                          $0                    $0        $0
B. Structures, Facilities,
   & Leasehold Improvements                                                       0                      0           0
C. Military Equipment                                                             0                      0           0
D. ADP Software                                                                   0                      0           0
E. Equipment                               SL               l-5              4,806                 4,548        258
F. Assets Under Capital
   Lease                                                                         0                       0           0
G. Other                                                                         0                       0           0
H. Natural Resources                                                             0                       0           0
I. Construction-in-Progress                                                      0                       0           0
         Total                                                              4,806        4,548                  258

                *Key:
                Demeciation Methods                              Range of Service Life
                SL - Straight Line                              l-5      lto5years
                DD - Double-Declining Balance                   6-10     6to lOyears
                SY - Sum of the Years’ Digits                   1l-20    llto20years
                IN - Interest (sinking fhd)                     >20      Over 20 years
                PR - Production (activity or use
                method)
                OT - Other (describe)

Note 16.      Debt

       Not applicable.




                                                   45
Footnotes

Note 17.         Other Liabilities

A.        Other Liabilities Covered by Budgetary Resources:

                                               Non-Current         Current
                                                 Liabilities     Liabilities          Total
1. Intragovernmental
      a. P.L. 104-201                                               $51,161         $51,161
      b.

                                                          $0       $51,161          $51,161

                                               Non-Current         Current
                                                 Liabilities     Liabilities          Total
2. Governmental
     a. Bid Deposits                                      $0         $4,800          $4,800
     b.
     c.
                                                          $0         $4,800          $4,800

B.        Other Information:

         In FY 97 DNSC collected $5 1,16 1 million more than the $8 1.Omillion that was required
to be transferred by P.L. 102-20 1. The $5 1,16 1 million remaining in the fknd is a liability for
future transfers.

C.        Other Liabilities Not Covered by Budgetary Resources:

                                              Non-Current          Current
                                                Liabilities      Liabilities          Total
1. Intragovernmental
                                                         $0
     k.
     C.

                                                         $0              $0              $0




                                                46
                                                                                       Footnotes



                                              Non-Current          Current
                                                Liabilities      Liabilities            Total
2. Governmental
     a. Accrued Annual Leave-Civilian                     $0            $496            $496
     b.
     C.
                                                          $0            $496            $496


Note 18.         Leases

          Not applicable.

Note 19.         Pensions and Other Actuarial Liabilities

          Not applicable.

Note 20.         Net Position

                                         Revolving             Trust           Appropriated
                                           Funds               Funds              Funds             Total
A. Unexpended       Appropriations:
     (1) Unobligated,
         a. Available                                $0                $0                $0                 $0
         b . Unavailable                              0                0                  0                  0
     (2) Undelivered Orders                      3,980                 0                                3,980
B. Invested Capital                         3,377,691                  0                  :         3,377,691
C. Cumulative Results
      of Operations                           621,437                  0                  0          621,437
D. Other                                            0                  0                  0                0
E. Future Funding
      Requirements                               (496)                                                  (496)
   F. Total                           $4,002,612                                                   $4,002,612

G.     Other Information:

       The amount listed in Undelivered Orders is the amount unexpended for Congressionally
appropriated grants.

Note 21.         Taxes

       Not applicable.




                                                47
Footnotes

Note 22.        Other Revenues and Financing    Sources




A. Other Revenues and Financing      Sources                       1997             1996
     1.                                                                    0          $1,442
     2.                                                                    0               0
     3.                                                                    0               0
     Total                                                                 0          $1,442

B.      Other Information:

        In FY 1996 income was reported on this line in error. This amount includes charges for
services performed. In FY 1997 the corresponding amount was included as normal revenue.

Note 23.       Program or Oueratine Exuenses
                                                                      1997

A. Operating Expenses by Object Classification:
     (1) Personal Services and Benefits                            $14,985           $15,810
     (2) Travel and Transportation                                   1,336             1,259
     (3) Rental, Communication and Utilities                        19,799            18,249
     (4) Printing and Reproduction
     (5) Contractual Services                                       13,56;               14,405e
     (6) Supplies and Materials                                      1,409                  885
     (7) Equipment not Capitalized                                   1,525                  265
     (8) Grants, Subsidies and Contributions                         3,679                8,470
     (9) Insurance Claims and Indemnities                                0                    0
     (10) Other (describe):
           (a) County Taxes                                                1                 9
           (b) Interest Paid to Contractors                               10

     (11) Total Expenses by Object Class                    2315               s59,360

B.      Operating Expenses by Program:

        Not applicable.

C.      Other Information:

        Operating expenses are not available by program.




                                               48
                                                                                   Footnotes

Note 24. Cost of Goods Sold A, B, or C as appropriate.

C. Cost of Goods Sold from Inventory (using Historical Cost):
     (1) Beginning Inventory
           Plus: Purchases at Cost
           Plus: Inventory Gains
           Minus: Inventory Losses
           Minus: Inventory transferred at no cost
           Minus: Silver shipped but not yet sold
     (2) Less: Ending Inventory
     Cost of Goods Sold

D.      The cost of goods sold shown above includes $1,933 thousand for silver shipped to the
U.S. Mint and unsold as of September 30, 1997.

Note 25.        Other Expense

        Not applicable.

Note 26.        Extraordinarv    Items

        Not applicable.

Note 27.        Prior Period Adjustments


A    Prior Period Adjustments:
     #IDefaulted Contracts/Other PY Adjustments

     Total
                                                          ($18y512
                                                          ($18,510)

B.      Other Information:

        Not applicable.




                                               49
Footnotes

Note 28.        Non-Oueratiw      Changes - (Transfers and Donations1

                                                                             1997              1996
B. Decreases:
     (1) Transfers-Out:
          (a)U.S Army



     (2)     Non Operating Liability - P.L. 104-201
     (3) Other Decreases
     (4) Total Decreases
C. Net Non-Operating        Changes (Transfers):                     ($283,30;            ($150,895)

D.      Other Information:

        DNSC transferred Titanium to the U.S. Army without reimbursement, per P.L 104-106,
with an inventory value of $901 thousand. DNSC recorded equipment not previously recorded
on the books as net of depreciation, $258. In addition there was an unhded annual leave
accrual of $496. These three transactions (901+496-258) make up the $1,139 thousand in “Other
Decreases” above.

Note 29.        Intrafund    Eliminations   (in thousands)

Schedule A:

        Not applicable.

Schedule B:

        Not applicable.

Schedule C:

        Not applicable.

Schedule D:                                      ,

                                    Reimb .           Accounts                 Unearned
Selling Activity:                 Source Code        Receivable   Revenue      Revenue        Collections

Defense National Stockpile              F                    $0    $21,276                        $21,276’
           Total                                 ;           $0




                                                     50
                                                                                     Footnotes


                                                Accounts
Customer Activity:                              Pavable       Expenses    Advances      Disbursements
Department of the Treasury
(Bureau of the Mint) (T.I. 20)                      $21,276         $0             $0            $21,276
             Total                                  $21,276         $0             $0            $21,276

       This represents sale of silver coins by the Bureau of the Mint for the Defense National
Stockpile.

Note 30.       Contirwencies

       Not applicable.

Note 31.       Other Disclosures

       Operating leases for FY 1997 were $18.3 million. Proposed operating lease amounts
through FY 2002 as proposed in the POM submitted in FY 1997 with corrections to FY 1998 and
FY 1999 Corn the FY 1999 BES in millions are:

                                 FY 1998        $20.0
                                 FY 1999         19.5
                                 FY 2000         16.7
                                 FY 2001         14.1
                                 FY 2002         13.7




                                               51
         AUDIT OPINION




DEFENSE NATIONAL STOCKPILE
     TRANSACTION FUND




  FINANCIAL STATEMENTS




      AUDIT OPINION
        AUDIT OPINION




(Thispage intentionally le$ blank)




                74
                               INSPECTOR GENERAL
                               DEPARTMENT OF OEFENSE
                                 400 ARMY NAW DRIVE
                               ARLINGTON. VmGlNiA 22202




                                                                February27,1998
MEMORANDUMFOR UNDER SECREI’ARYOF DEPENSE(CO~OILER)‘AND
                CHrEFFJNANCIALoFFICER
              DIRECI’OR,DEFENSEFINANCEAND ACCOUNTING
                SERVICE
              DIRECTOR,DEFEN!ZEUIGISTICSAGENCY
SUBJECP   DisdaimofopinionontbeNationalDcfeo8eStoc         ‘lbmcti   ‘on Fund
          Fina&al Statementsfor FY 1997 (Rqjact No. 8FH-  %%I
                                                           l




                                                           )
                                                                                  2

Dkcctors OMB; and the c4nnptrollcr Gamal Oftbe~Uni~~~tates.Footnote 1 oft+ Fund’s
riannckleatcma@dhcuSxsthe~~~tmg~thtthcDef~N~~
stockpik CaItcx followed in pqanng        -tS.
      xntanalcoadrols. wefevkwedthchtcmalam~rtnrcbre          OfthcFundand
o&ainaian~gofthcintenrnl~~policiesand~urcS.                      Inaddition,we
r&cwed the implanca~tationof the managementcontrolprogramby the.F~_~~.
we pchrmed      liGBbletcstSoftheintanalfsontfolStOfWuEto~
CcmtrolSwueezpective8ndworkiagaS~.
       Tbeiatunaloontrol-        waSeff&ivcill-gfixafKl~~,
awingcomp~wi~lawSandregulntiaar,radalSulingthatthc~rhtements
wcekOfmatcW~tS.                  Exowcve,~unmtnrrrirtOimpfovcin~
amtxu!lsovefthe~and~0f~ts~vable.                           ThehnualstakmaltSof
Auurola0fthDefea&~stia~ryradthe~~~~~~~~~savice
CohmbuSCuerdidnot~~anyrmtrrial~                                          .

      CZtmnp~WEth~wsmd~.                      WCluswwlcompli?lKxWithfoWS~
EgUhtiOfWCWCdtothCfinnncint    SWcmaItS. I&nag-t      gaIaally aPmplicdwith the laws
andrcgulatioas. Noncofthccompliancchxsidentifialduringourwotkwouldhavcr
maklialimpact<mtbe-          satanen& OnecomplianccisuewaStbehilufeto             a
liabii foealSionsand~AcMrialLiabili~,whichisam                  toguidalnin YEi?
*MBL         No.94-01. Inddition,undcrti~~F~F~            %
ImpnMm& Act of 1996 and OMB BuuetinNo. 93-06, Addauhm 1,4iiir!i&tS
fos FederalFinanchl Statcmau,” January16,1998, auf work di~chai thatfhanchl
managema&SyStcmSdidnotcomplywithFcdemliinanhlmanag~trystem
leq_tS;      appliable-       Ihtxounting
                                        #alArd& and the U.S. Go%mmaIt standafd
GenmlLcdgeratthctheonlcvel.
Appendix D. Management and Legal
Representation Letters
This appendix, a total of 3 pages, consists of the management and legal representation
letters for the FY 1997 National Defense Stockpile Transaction Fund Financial
Statements.




                                          47
                                           DEFENSE            LOGISTICS         AGENCY
                                                          HEADQUARTERS
                                       8725 JOHN        J. KINGMAN      ROAD,     SUITE     2533                     j

                                            FT. BELVOIR,        VIRGINIA   22-221


IN REPLY
   REFER TO   FOX




              MEMORANDUM FOR ASSISTANT INSPECTORGENERAL FOR AUDITING, DOD

              SUBJECT: Management Representation Letter for the National Defense Stockpile
                       Transaction Fund FY 1997 Financial Statements


                 For the purpose of expressing an opinion on whether the cited financial statements are
              presented fairly and in accordance with generally accepted accounting principles and Office of
              Management and Budget (OMB) Bulletin 94-01, “Form and Content of Agency Financial
              Statements,” November 16, 1993, I confirm, to the best of my knowledge and belief, the following
              representations:

                     o I am responsible for the fair presentation of the financial statements in accordance with
                       generally accepted accounting principles and OMB Bulletin 94-01.

                     o I have made available to you all financial records and related data.

                     o I have no plans or intentions, other than any of those previously disclosed to you, that
                       may materially affect the carrying value \)r classification of assets and liabilities.

                     o I have no knowledge of irregularities involving management or employees who have
                       significant roles in the internal control structure that are not a matter of public record.

                     o I have no knowledge of other employees being :nvolved in irregularities that could
                       materially affect the financial statements that are not a matter of public record.

                     o I have not received communications from regulatory agencies or auditors concerning
                       noncompliance with, or deficiencies in, financial reporting practices that could have a
                       material effect on the financial statements that are not a matter of public record.

                     o Related third-party transactions and related amounts receivable or payable of
                       interested participants, including assessments, loans, and guarantees, are not
                       applicable.

                     o I have no knowledge of violations or possible violations of laws or regulations whose
                       effects should be considered for disclosure in the financial statements or as a basis for
                       recording a loss contingency that are no+ a matter of public record.



                                        Federal Recycling Program       Prlnted on Recycled Paper
                                                                    a
o There are no other material liabilities or gain or loss contingencies that are required to
  be accrued or disclosed by Financial Accounting Standards Board Statement No. 5,
  “Accounting for Contingencies,” March 1975.

o There are no unasserted claims or assessments that our legal representatives have
  advised us are probable of assertion and must be disclosed in accordance with
  Financial Accounting Standards Board Statement No. 5.

o I have no knowledge of material transactions that have not been properly recorded in
  the accounting records underlying the financial statements that are not a matter of
  public record.

o Provisions, for material amounts, have been made to reduce excess or obsolete
  inventories to their estimated net realizable value.

o To my knowledge, the Federal Government has satisfactory title to all reported
  assets, and there are no liens or encumbrances on such assets, nor has any asset been
  pledged as collateral.

 o Provision has been made for any material loss to be sustained as a result of purchase
   commitments for inventory quantities in excess of normal requirements or at prices
   in excess of normal requirements or at prices in excess of the prevailing market
   prices.

 o I have no knowledge of noncompliance with all aspects of contractual agreements
   that would have a material effect on the financial statements in the event of
   noncompliance.

 o I have no knowledge of events that have occurred after the balance sheet date that
   would require adjustment to or disclosure in the financial statements that have not
   been previously identified on the statements.




                                                   )_
                                           HENRY T. GLISSON
                                           Lieutenant General, USA
                                           Director

                                           &z@~~~
                                           LINDA J. FURIGA
                                           Comptroller
                                    DEFENSE      LOGISTICS      AGENCY
                                               MZADQUARTERS
                                  8725 JOHN J. KINGMAN ROAD, SUITE 2S33
                                      FL BEWOIR, VIRGlNlA -1

m REPLY
 REFERTO   Gc                                                            Ma&h 1,1998


           MEM0WUM           T;‘ORASSISTANT INSPECTOR GENERAL FOR ALJDITIIUG
                                    OFFICE!OF THE INSPECTORGENERA&
                                    DEPARTMENTOFDEFENSE

           SUBJECT:National D&me StockpileTramactionFund Fd              StatementAudit FY 1997


                  Thisrrspondsto~armualnquirementforaItgalrepresentationr~thcauditof
           the National D&me Stockpile Tramaction Fund FY 1997 lhncial statements.

                 I haveno knowledgeof ttay material claims,liens, lass umtingtiq assessmolts or
           maser&d c3aimsinvoking the National D&me StockpileTramactionFund for FV 1997 and to
           date oftbis memoran~




                                                    BRUCE W. BAIRD
                                                    Genelalcounscl
Appendix E. Laws and Regulations Reviewed
   Title 50, United States Code, section 98 et seq., “Strategic and Critical
   Materials Stockpiling Act”, December 4, 1987

   Public Law 104-329, “United States Commemorative Coin Act of 1996,”
   October 20, 1996

   Public Law 104-201, “National Defense Authorization Act for Fiscal
   Year 1997,” September 23, 1996

   Public Law 104-208, “Federal Financial Management Improvement Act
   of 1996,” September 8, 1996

   Public Law 104-304, “Debt Collection Improvement Act of 1996,” April 25,
   1996

   Public Law 104-106, “National Defense Authorization Act for Fiscal
   Year 1996,” February 10, 1996

   Public Law 103-356, “Federal Financial Management Act of 1994,”
   October 13, 1994

   Public Law 101-576, “Chief Financial Offkers Act of 1990,”
   November 15, 1990

   Public Law 97-255, “Federal Managers’ Financial Integrity Act of 1982,”
   September 8, 1982

   OMB Bulletin No. 98-04, “Addendum to OMB Bulletin No. 93-06,”
   January 16, 1998

   OMB Bulletin No. 97-01, “Form and Content of Agency Financial Statements,”
   October 16, 1996

   OMB Bulletin No. 94-01, “Form and Content of Agency Financial Statements,”
   November 16, 1993

   OMB Bulletin No. 93-06, “Audit Requirements for Federal Financial
   Statements,” January 8, 1993

   Statement of Federal Financial Accounting Standards No. 3, uAccounting for
   Inventory and Related Property,” October 27, 1993

   Statement of Federal Financial Accounting Standards No. 5, “Accounting for
   Liabilities of the Federal Government, n December 20, 1995




                                       49
Appendix E. Laws and Regulations Reviewed


      Statement of Federal Financial Accounting Standards No. 7, “Accounting for
      Revenue and Other Financing Sources and Concepts for Reconciling Budgetary
      and Financial Accounting,” May 10, 1996

      Dod Regulation 7000.14-R, “DOD Financial Management Regulation, * volume
      6, “Reporting Policy and Procedures,” February 1996

      Dod Regulation 7000.14-R, “DOD Financial Management Regulation, * volume
      4, “Accounting Policy and Procedures,” January 1995

      Dod Regulation 7000.14-R, “DOD Financial Management Regulation,”
      volume 10, “Contract Payment Policy and Procedures,” June 1997

      DOD Directive 5010.38, “Management Control Program,” August 26, 1996

      DOD Instruction 5010.40, “Management Control Program Procedures, n
      August 28, 1996

      DOD 7220.9-M, “DOD Accounting Manual,” October 1983




                                       50
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller) and Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Assistant Secretary of Defense (Public Affairs)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy

Department of the Air Force

Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Columbus Center
Director, Defense Logistics Agency
Administrator, Defense National Stockpile Center




                                          51
Appendix F. Report Distribution


Non-Defense Federal Organizations and Individuals

Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional
committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
     Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                          52
Part III - Management   Comments
Defense Logistics Agency Comments


                       DLCLNSL LOGISTICS AGENCY
                               HUDOUARTERS
                     8725JOHNJ. KINGMAN ROAD, SUITE 2533
                        FT. SELVOIR. VIRGINIA 22MO-6221




      DDAI


      ~~~EMORAND~FORASSISTANTINSPECTOR~FORAUDITINCI,
                    DEPARThdENTOFDEFENSE




      EaclosdaTcm-toymrcIQllcdof24April1992.         shouldyoahve8uyquestimr,
      plemeoopjrcthGmiscbinnrcba,
                       767-6263.




                                    54
                                                      Defense Lmistics Aremy Comments




SUBJECT:       Intan8lConmlsmdCompliallcewithLawsslldRe~0~fortheFy
               1997 National Dcfknsc &&pile Tnmswtion Fund Fii              Statema&
               SFH-2004.01

FINDING A. Collection of Accounta Receivable. Tk Fund’s Dcbqmt             msxnmts and
intem?trahable     inm!wd~$15.5millionrcpmtedmseptember30,19%to                     $33.4
million on SeJmk      341997. Ofthc s15.5 million fqmted on September 30,1996,
s10.7miuianwwstilldueonSeptanber30,1997.            Ourintunalcontroland~lisnce
rqJortsfor199sand19%rcpamdthcsamemlditionand              -improvemcntin
the coktim    pmcess and the WIiting off of accounts mceivable. Collection of mxxmnt8
~~~didnot~ebccauseDNSCdidnotfirulimalrewConccptofOpaaticw
between DNSC and DFAS Columbus titer, to improve coMons             of receivables, until
late January 1998. Fur&mm,     DNSC and DFAS Columbus Center did not develop
jlMXlWS~~ViDgCOllectiansdWKitillgOff                 axaunts mccivable uutil February
 1998. The amount of mxivables incmscd bccauw of the lack of action by DNSC and
~~~~y,~l~~~u,tbeDoDmrybffomc~~~le




                    SALES
                        FIscALYEAR            NUMBER OF CONTRACTS




DNSC~atermtoDFASC&mbusC!u&rinFeba\lmy1998.                       Asamuitofthatvisit
scvml~forimprovcdopaatianswcrcmade.                            DNSCm;raagmrcnrisin
tkpzQcessofevaluatillgtheae~onsandwillweablish~tobetta




                                             55
Defense Lwistics Agencv Comments




                                   56
                                Defense Lwistics Agency Commentq




RECOMMENDATIONC.2: lkmamud   tk Admidmb,   D&me Ndiomal




                        57
Defense Lwistics Agencv Comments




      ACTION OFFICER: Frank Taylor, DNSC-DI, (703) 7676530




      DLACOlKMENTk Conam SFFAS3rcquks~mmrterialsbcvalucdontbc
      bnsisofhistorMcort     SFFAS3al8ogKovidmm~on~tbcv8l~ofmclterirl
      withapeummddcclkinval~mdrcquimthattbedoclimbcmc4&dasalousor
      ancxpmscintkperhdinwhichitoccum.          DNSChmidmtifiedd.lcomadtieswitha
      pamaDmtdOClilEhvaluedWiIl~tk’Stockpile~’lineitan8C.C.ouat
      InthefutmDNSCwilluljusttl~%ock@le-liacitun-forany
      cu5mo&tydatamidtobaveapamuread&c~in~.

      DISPOSITION:    Ongo-     ECD: Scptanbex 199%

      ACI’ION OFFICEIk      Sian l&thws,   DNSC-L, (703) 767-6502




      DLACO-                Concar.DNSChasancddiakdpaoceQnforh~
        .
      djustnvpts . As8oonasallpdnabtinfomMb8ndmrr_rar~hasbarobtaiaeda
      requutfor~~adjuclhnenis&bybyDepotDcpotffd-to
      HQfbrappnnd.      Aftazwiewad     -byDNSCcornrrelthedjusbmensis
      8ppr4+byeitbathe~,~of~-~ofthc
      Adlmumw.~all-formrdjuatmentrsqucsLall~d
      montbadqadingu~ontkwmndity.            DNSC-LwillpovideDNSGMalisting
      qumtulyoftbe-puldiogwriteo~

      DISPOSITIONz c!od&md        compke




                                               58
59
Defense Lo&tics Agency Comments




                                       5-5




                                  60
61
Defense Lwistics Agencv Comments




                                   3-40




                                    62
                 Defense Lo&tics   Agencv Comments



-                                         --

    STAUDARD           s
         OPBATIIGPROCEDURES                     .


                                                I




            63
Defense La&tics Aeencv Comments




                                  64
                                               Defense L-m&tics Agency Comments




AClION   OFFICERz Dixie l!qlmd, DNSGDF, (703) 767~5513/Fmnk Taylor,
                  DNSGDI, (703) 767-6530

RECOMMENDATION F.1: Reamnad tb -,                       Dcfhsc National
StockpihCentadetcnniactbeamountof~n~rtqllirtdd~itinthe
alxounting~~h-tith                  Slmneatofi?~Fii~
Stadards No. 5, %bccmhq for Liabilities of the Fedad Oovanmmi   Daxmbcr 20,
1995.

DLA COMMENTS: Concur. DNSC will t,akcmve              action to de&mine the
amomtofpmsicmcxpux4cqukddmcmlitintbtacunmhgcccorda.

DISPOSITION Oqoiq        ECD: August 1998.




DISPOSITION: Coddad       Compbte




DISPOSITIONxOngadq ECD: July I,1998

ACTION OFFICERz Dixie Englad, DNSGDF, (YO3)767-55 13
APPROVALi David P. Keller, RADM, SC, US& Cummamk, DLSC
COORDlNATIONz Mimi Schimdm. DDAI. 767-3

DLA APPROVALz




                                       65
Audit Team Members

This report was prepared by the Finance and Accounting Directorate, Office of
the Assistant Inspector General for Auditing, DOD.

F. Jay Lane
David F. Vincent
John A. Richards
Tyler C. Apffel
George B. West, Jr.
Jermaine D. Las&r
Frank Sonsini
Lusk Penn
Susanne B. Allen
Angela D. Clayton
